App. 1
IN THE SUPREME COURT
OF THE STATE OF NEVADA
JOHN FRITZ; AND
MELISSA FRITZ,
Appellants,
vs.
WASHOE COUNTY,
Respondent.

No. 75693

ORDER OF AFFIRMANCE
(Filed May 31, 2019)
This is an appeal from a district court judgment
after a bench trial in a real property action regarding
an inverse condemnation claim. Second Judicial District Court, Washoe County; Kathleen M. Drakulich,
Judge.
The property at issue in this dispute is a 2.5 acre
parcel on Bihler Road in unincorporated Washoe
County that has periodically ﬂooded over the years.
The property is within the White’s Creek watershed.
White’s Creek bifurcates into four channels, two of
which run consistently and two of which run depending upon seasonal local precipitation and runoff that
ﬂows during storm events. One of the latter two channels, White’s Creek #4, runs through the southeast
corner of the property.
John Fritz and Melissa Fritz purchased the property in 2001. After purchasing it, they built a home,
garage, and shop on the property. Part of that

App. 2
construction included grading the property to accommodate the structures and landscaping the area
around the house. From 2002 until 2015, the Fritzes
consistently rented the property to other tenants, and
received approximately $166,000 in rental income in
those years. Since they have owned the property, John
has continued to use the shop for storage of construction materials and used the southern side of the parcel
for parking of trailers and vehicles. The Fritzes moved
into the home in 2015, and still live there today.
The Fritzes ﬁrst experienced ﬂooding on their
property in 2005. A winter storm inundated the area
and caused water to run through their property. The
water reached the shop on the property and placed several inches of water, dirt, and soil in the garage. There
was no damage to the house; however, there was damage to the personal property stored in the garage. Nevertheless, the Fritzes did not ﬁle an insurance claim for
that incident. The Fritzes experienced some ﬂooding
again during a winter storm in 2014. However, no evidence was introduced in the district court regarding
the impact of that ﬂooding on the Fritzes’ home, shop,
or garage. That said, there was evidence presented
that water pooled in the southeastern graded portion
of the property. Then, in 2017, the Fritzes experienced
ﬂooding again. Speciﬁcally, in that year, there were historic amounts of precipitation and snow melt in the
area, leading the federal government to declare two
ﬂood disasters. Melissa took a video of that event showing large amounts of water coming from the overﬂow
of White’s Creek #4, heading north on Bihler Road, and

App. 3
ﬂooding the property. However, even with the historical amount of ﬂooding in 2017, the Fritzes’ house, garage, and shop were not damaged during that event.
The Fritzes contend that all the ﬂooding on the
property was the result of public improvements to two
upland developments, Lancer Estates and Monte Rosa,
as well as improvements to upland Mount Rose Highway. The Fritzes argue that improvements to those
developments have gradually increased over time as
those developments expanded.
The Fritzes ﬁled a complaint in the district court
for inverse condemnation, alleging that Washoe
County substantially participated in the planning and
development of Lancer Estates and Monte Rosa, and
that those developments have substantially increased
and accelerated the ﬂow of water across White’s Creek
#4. Initially, the district court dismissed the Fritzes’
claim by summary judgment. The Fritzes appealed,
and we reversed, concluding that the district court’s
ﬁndings were insufﬁcient to determine if there was a
taking, and that genuine issues of material fact existed
as to whether Washoe County actions constituted substantial involvement in the development of the drainage system in that area. Fritz v. Washoe Cty. (“Fritz I”),
132 Nev. 580, 586, 376 P.3d 794, 796 (2016).
After remand, the district court reopened discovery. The case eventually proceeded to a three-day
bench trial on the taking and proximate cause elements of the inverse condemnation claim. The court
concluded that, as a matter of law, the ﬂooding on the

App. 4
Fritzes’ property did not rise to the level of a taking,
and that there were other factors other than those
involving Washoe County that caused the Fritzes’
property to ﬂood. The Fritzes now appeal that determination.
The district court did not err in concluding there was
not a taking
The Fritzes contend that the district court made
clearly erroneous ﬁndings of fact regarding the evidence of recurring ﬂooding and future ﬂooding.1
Washoe County responds that the Fritzes were not
substantially injured, as required by Buzz Stew,
1

The Fritzes contend that the district court erroneously
determined that no taking occurred because the district court applied the incorrect standard of law. Speciﬁcally, the Fritzes complain that the district court used the standard set forth in ASAP
Storage, Inc. v. City of Sparks, 123 Nev. 639, 648, 173 P.3d 734,
741 (2007), when it should have used Buzz Stew, LLC v. City of
N. Las Vegas, 131 Nev. 1, 7, 341 P.3d 646, 650 (2015). As an initial
matter, Buzz Stew did not overturn, distinguish, or clarify the
standard used for a taking. 131 Nev. at 7, 341 P.3d at 650. In fact,
the supposed clariﬁed standard the Fritzes rely on in Buzz Stew
directly cites to ASAP Storage and Clark County v. Powers, 96
Nev. 497, 501 n. 3, 611 P.2d 1072, 1075 n.3 (1980). Id. The district
court used both of those cases to determine whether a taking
occurred. Thus, the Fritzes’ argument that the district court applied an incorrect standard of law has no merit.
The Fritzes also argue that numerous other ﬁndings of fact
by the district court were clearly erroneous or not supported by
substantial evidence. However, each of the remaining ﬁndings
they dispute relate to the proximate cause element of the district
court’s decision, rather than the taking element. Because we conclude the Fritzes failed to demonstrate a taking occurred, we need
not address those arguments.

App. 5
because water pooling on a property during a storm
event is not substantial injury. We agree.
Inverse condemnation requires: “(1) a taking (2) of
real or personal interest in private property (3) for
public use (4) without just compensation being paid
(5) that is proximately caused by a governmental entity (6) that has not instituted formal proceedings.”
Fritz I, 132 Nev. at 584, 376 P.3d at 796. “Whether a
taking has occurred is a question of law that this court
reviews de novo.” City of Las Vegas v. Cliff Shadows
Prof ’l Plaza, LLC, 129 Nev. 1, 11, 293 P.3d 860, 866
(2013).2 Additionally, we have “repeatedly held that
ﬁndings of fact and conclusions of law, supported by
substantial evidence, will not be set aside unless
clearly erroneous.” Sheehan & Sheehan v. Nelson
Malley & Co., 121 Nev. 481, 486, 117 P.3d 219, 223
(2005) (internal quotation and citation omitted).
For a taking by flood water to occur, there must
be a physical invasion of ﬂood waters resulting in substantial injury. Buzz Stew, 131 Nev. at 7, 341 P.3d at
650. For substantial injury to exist, the physical invasion must “effectually destroy or impair [the property’s]
usefulness.” Clark Cty., 96 Nev. at 501 n.3, 611 P.2d at
1075 n.3. “[W]hen property is subjected to intermittent, but inevitable ﬂooding which causes substantial
injury,” the requirement is no different. Id.

2

Because whether a taking occurred is a question of law, we
reject the Fritzes’ contention that the case should have been tried
by a jury.

App. 6
We conclude that the district court correctly determined that there was no taking. Since the Fritzes
bought the property, it has only ﬂooded three times and
none of those times resulted in substantial damage
sufﬁcient to destroy or impair the property’s usefulness. Only once did the ﬂooding invade the garage that
John used for storage of his personal property, and he
has continued to use the building for that same purpose since. The ﬂooding has merely resulted in erosion
and channeling in a graded area of the property away
from the house, shop, and garage. Further, the Fritzes
have been able to lease the property out to various tenants since they have owned the property, generating
just over $160,000 in revenue. The Fritzes moved back
onto the property in 2015 and continue to reside there
today. Thus, the district court was correct in concluding
that the ﬂooding did not result in substantial injury to
the Fritzes.
We additionally conclude that the district court’s
ﬁnding regarding future ﬂooding on the property was
not clearly erroneous. The Fritzes argue that their expert presented evidence that ﬂooding will continue and
increase the more urbanization of that area increases.
However, the evidence of future ﬂooding was scant and
speculative, particularly when coupled with evidence
that the property has only ﬂooded three times in
roughly twenty years, none of which resulted in substantial damage. Given the evidence available, the
district court’s ﬁnding does not rise to clear error. Accordingly, the district court did not err in holding that
no taking occurred. We thus

App. 7
ORDER the judgment of the district court AFFIRMED.3
/s/ Pickering
Pickering

, J.

/s/ Parraguirre
Parraguirre

, J.

/s/ Cadish
Cadish

, J.

cc: Hon. Kathleen M. Drakulich, District Judge
David Wasick, Settlement Judge
Luke A. Busby
Washoe County District Attorney/Civil Division
Fennemore Craig P.C./Reno
Blanchard, Krasner & French
Washoe County District Court Clerk

3

We have considered the Fritzes’ remaining arguments and
conclude they are without merit.

App. 8
IN THE SECOND JUDICIAL DISTRICT COURT
OF THE STATE OF NEVADA IN AND
FOR THE COUNTY OF WASHOE
JOHN AND
MELISSA FRITZ,
Plaintiffs,

Case No.: CV13-00756

v.

Dep. No.: 1

WASHOE COUNTY,
Defendant.

/

FINDINGS OF FACT, CONCLUSIONS OF
LAW AND JUDGMENT AFTER BENCH TRIAL
(Filed Apr. 24, 2018)
On April 9-11, 2018, the parties appeared before the Court for a bench trial in this matter on the
claim of Inverse Condemnation alleged in the Third
Amended Complaint. Plaintiffs John Fritz and Melissa
Fritz (collectively the “Fritzes” or “Plaintiffs”) were
represented by Counsel Luke Busby, Esq., and the
Defendant Washoe County (“Washoe County” or “Defendant”) was represented by Counsel Michael Large,
Esq. and Stephan Hollandsworth, Esq. of the Washoe
County District Attorney’s Ofﬁce. The Plaintiffs were
present, testimony was presented, exhibits were identiﬁed and admitted and the evidence was argued before the Court. The Court now issues a decision on the
matter.

App. 9
I.

FINDINGS OF FACT

1. The subject parcel in this dispute is located at
14400 Bihler Road, APN No. 142- 241-63, (the “Property”) in unincorporated Washoe County. (List of Undisputed Facts ¶ 1, Mar. 25, 2018). The Property is
bounded uphill to the west by Bihler Road. (Ex. 128).
The Property is a 2.5 acre parcel referred to as a Government Parcel created by federal patent under the
Small Tracts Act. (List of Undisputed Facts at ¶ 2). The
Property contains a 33-foot access and utility easement on each side, but no drainage easements. (Id.; Ex.
130, generally).
2. Bihler Road was constructed by the developer
of the Lancer Estates subdivision around 1990 as an
easement for access to the Governmental Parcels. (See
Ex. 130, generally). Bihler Road is now a private road
that is owned and maintained by the residents of the
adjoining properties, including Plaintiffs in this matter. (List of Undisputed Facts at ¶ 4).
3. The Whites Creek watershed is approximately
11.2 square miles that stretches to the peaks of Mt.
Rose in the Sierra Nevada Mountains. (Tr. Vol. 2 at
129:16-130:1, 133:7-20, Apr. 16, 2018; Ex. 84 at 22-23).
Whites Creek bifurcates into four channels. (Tr. Vol. 1
at 204:1-2, Apr. 15, 2018). Whites Creek #1 and #3 run
consistently year around. (Tr. Vol. 3 at 69:16-23, Apr.
16, 2018). Whites Creek #2 and #4 are ephemeral
streams that respond to local precipitation and local
run off that ﬂow only during storm events. (Tr. Vol. 2 at
125:6-12; Tr. Vol. 3 at 70:1-7, 252:19-253:2).

App. 10
4. Whites Creek #4 crosses through the southeast corner of the Property. (List of Undisputed Facts
at ¶ 3; Tr. Vol. 1 at 21:18-20).
5. In 1984, Washoe County became a member of
the National Flood Insurance Program (“NFIP”). Under the NFIP, the Federal Emergency Management
Agency designates certain areas as ﬂoodplains. (List of
Undisputed Facts at ¶ 5). In 1984, the area in and
around Whites Creek #4 was designated as a ﬂoodplain
by FEMA. (Id.; Tr. Vol. 1 at 221:13). This ﬂoodplain extends onto the Property covering the southeast portion
of the Property, and the Plaintiffs knew that the Property was within the FEMA ﬂoodplain when they purchased it. (Tr. Vol. 1 at 125:19-125:2, 167-23[sic]-168:1).
FEMA relocated the limits of the ﬂoodplain in the areas of Whites Creek #4 in 2009, which widened the
ﬂoodplain and moved it further onto the Property. (Id.
at 222:21-223:3; Ex. 124 A, B, C).
6. Two culverts run underneath Bihler Road
south of the Property. (Tr. Vol. 2 at 74:18-20; Ex. 26 at
Ex. 4). Culvert #1 is a 48-inch culvert in the bed of
Whites Creek #4. (Tr. Vol. 1 at 231:17-21, 225:23-226:1;
Tr. Vol. 3 at 19:6-17; Ex. 26 at Ex. 4). Culvert #1 is not
on the Property and is located on two private parcels
south of the Property. (Tr. Vol. 3 at 142:5-7; Tr. Vol. 2 at
43:17-23).
7. Culvert #2 is a smaller culvert which runs under Bihler Road from west to east north of and somewhat parallel to Culvert #1. (Tr. Vol. 3 at 19:14-17;
Ex. 26 at Ex. 4). Culvert #2 channels water from the

App. 11
Governmental Parcels and Trails End Lane directly
onto the Property. (Ex. 26 at Ex. 4). The output of Culvert #2 is on the east side of Bihler Road and on the
southerly side of the Property. (Id.; Ex. 84 at 44; Ex. 44
at 2).
8. Plaintiffs John Fritz and Melissa Fritz purchased the Property on August 24, 2001 from John and
Dora Du Puy and recorded a grant deed on the Property with the Washoe County Recorder. (List of Undisputed Facts at ¶ 6).
9. After the purchase, in 2001 and 2002, Plaintiffs obtained building permits and built a home with
two adjoining structures (a garage and a shop) on the
Property. (List of Undisputed Facts at ¶ 7). Plaintiffs
placed driveways running from Bihler Road downhill
from west to east to the garage and the shop. (Ex. 120).
10. Plaintiff John Fritz is a general contractor
having built about 100 homes. (Tr. Vol. 1 at 122:14-16).
John Fritz selected the location for the house, shop and
garage on the Property. (Id. at 126:22-24, 127:2-3). He
graded the Property to accommodate the structures.
(Tr. Vol. 2 at 94:11-14). Further, Plaintiffs landscaped
the area around the house and planted approximately
30-40 trees. (Tr. Vol. 1 at 127:13-16).
11. From 2002 until 2015 Plaintiffs consistently
rented the Property to tenants. The rent collected during this timeframe is as follows:
Jason Fritz: from 2002 to 2007 for $800 per month;
Allison Power: from 2007 to 2008 for $1300 per month;

App. 12
Chris Fritz: from 2008 to 2009 for $800 per month;
Jessica Pahl: from 2009 to 2011 for $1300 per month;
Jim Bedland: from 2011 to 2015 for $1300 per month.
(Id. at 188:21-189:24). In total, Plaintiffs received approximately $166,000.00 in rental income from 2002
through 2015 for the Property. (Id. at 190:18-191:2).
For the past 17 years, John Fritz has continued to use
the shop for storage of his personal property, i.e. construction material. (Id. at 50:1-3, 52:24-53:7, 128:1-5,
191:3-7). Plaintiffs have used the southern side of the
parcel for parking of trailers and vehicles. (Id. at 175:712; Ex. 30 at 2).
12. During their ownership, Plaintiffs graded the
southern side of the Property which resulted in removing the natural vegetation. (Id. at 192:5-9; Ex 23 at 3).
13. In 2015, Plaintiffs moved into the house on
the Property and still live there today. (Id. at 189:25190:1).
A.

Lancer Estates.

14. In 1984, a tentative map was approved by
Washoe County for the Lancer Estates subdivision development. (Ex. 2 at 1). A resubmittal of the tentative
maps was approved in 1990. (Ex. 2). Lancer Estates is
located to the south and uphill from the Property. (Id.
at 3). It stretches from Whites Creek #4 on the north
to Mt. Rose Highway on the south. (Ex. 124). Lancer
Estates is an eleven phase subdivision project built by
private developers and their team of engineers that
consists of 231 homes. (Ex. 2 at 3).

App. 13
15. Between September 13, 1988 and June 17,
1997, Washoe County accepted roadway dedications of
Lancer Estates Units 1 through 8. (Ex. 16 at 1-15). On
August 17, 1999, Washoe County accepted the roadway
dedications of Lancer Estates Unit 11. (Id. at 18).
16. On October 16, 2001, following the purchase
of the Property by the Fritzes, Washoe County accepted
the roadway dedications of Lancer Estates Unit 9 and
Unit 10. (Id. at 16-17).
17. By accepting roadway dedication, Washoe
County is responsible for the operation, maintenance,
repair, replacement, snow plowing, et cetera of the public improvement. (Id. at 231:11-19). Washoe County accepted dedication of the drainages in Lancer Estates.
(Tr. Vol. 3 at 247:7-11).
B.

Monte Rosa Development

18. In 2005, Washoe County approved the ﬁnal
map for the Reserve at Monte Rosa, a residential development (“Monte Rosa”). (Ex. 15). Monte Rosa is located uphill from Lancer Estates. (Ex. 26 at Ex. 4).
19. Monte Rosa is a two-phased development;
Unit 1 consisted of 32 homes and Unit 2 consisted of
32 homes. (Ex. 166; Ex. 167). Construction began in
2005 and was completed by 2007. (Id.)
20. Detention basins were installed in the Monte
Rosa development, two of which are interconnected to
the storm drain system in Lancer Estates, the contents
of which drain into Whites Creek #4. (Ex. 26 at Ex. 4).

App. 14
21. Washoe County has not accepted any dedications of roadways or drainages from Monte Rosa, both
of which are private. (Tr. Vol. 3 at 230:11-231:8).
C.

Flooding Activity

22. In a letter dated August 30, 1990, CFA, the
contractor for Lancer Estates sent a letter to Larry
Bogden of the Washoe County Engineering Division
which addressed the storm ﬂows for Lancer Estates.
The letter provided in part:
At our meeting on August 30, we concluded
that the detention ponds shown on the tentative map will be deleted, storm ﬂows will
be directly discharged into the ﬂood zone of
Whites Creek, and the developer will provide
all of the erosion control at the outlets. In addition, runoff caused by this development will
not be retained on site.
(Ex. 1).
23. Washoe County approved the deletion of the
detention ponds. (Tr. Vol. 3 at 197:17-198:3). The Lancer
Estates detention ponds were eliminated because their
proposed location would have impacted FEMA regulations (44 CFR 60.3) [ﬂood plain management] and Section 404 [Clean Water Act] since it was necessary to
show that they would not have caused a cumulative
rise of more than one foot, and they would have. (Id. at
197:17-22).

App. 15
24. In April of 1994, Washoe County accepted a
Preliminary Whites Creek Basin Management Study
prepared by Cella Bar Associates (“Cella Bar Study”),
which had been commissioned by Washoe County to
study the hydrology of the Whites Creek area. (Ex. 4).
25. The Cella Bar Study indicates that “Existing
Problem Areas” include “[s]ome of the residential lots
backing up adjacent to the south of [Whites Creek]
Channel No. 4 have potential for ﬂooding during a 100year event.” (Id. at 15). The Plaintiffs’ Property is located in the area identiﬁed as a problem area in the
Cella Bar Study. (Ex. 4).
26. On June 13, 1996, the Nevada Department
of Transportation (“NDOT”) wrote a letter to Washoe
County requesting the assistance of the County to correct “a drainage problem on the north side of SR-431
[Mt. Rose Highway] between Telluride Drive and Sundance Drive.” (Ex. 14; Tr. Vol. 3 at 133:7-14). In part,
the letter provided that:
During discussions in April of 1993 it was decided between the department and Washoe
County that all ﬂows between Telluride Dr.
and Sundance Dr. exceeding 10 cfs [cubic feet
per second] would be conveyed northerly
through the Lancer Estates Property.1
(Ex. 14).

1

Lancer Estates is generally bounded on the west side by
Telluride Dr. and on the east side by Sundance Dr.. (Ex. 124,
Demo. A).

App. 16
27. The Lancer Estates storm drainage system
was designed to carry out the directive from Washoe
County to divert water from Mt. Rose Highway that
exceeded 10 cfs through Lancer Estates and into Whites
Creek #4. (Ex. 5, 6, 8, 15, 26; Tr. Vol. 3 at 115:10). Defendant’s expert did not dispute that water was diverted from Mt. Rose Highway, and did not address
water from Mt. Rose Highway in his reports in Exhibits 84 and 85. (Tr. Vol. 3 at 158:9-24).
28. Impervious surfaces on developed land, which
consist of rooftops, streets and driveways, result in increased runoff as compared to runoff over undeveloped
land that can be absorbed into the ground. (Tr. Vol. 1 at
223:19-224:11). The construction of Lancer Estates
and Monte Rosa increased runoff; that runoff along
with the runoff that exceeds 10 cfs from the Mt. Rose
Highway, is diverted into the Lancer Estates storm
drainage system which consists of 6 main drains that
ﬂow into Whites Creek #4 west of Bihler Road and then
through Culvert #2 under Bihler Road. (Id.; Ex. 26 at
Ex. 4).
29. The Lancer Estates storm drainage system is
designed to accommodate a 10-year event as opposed
to a 100-year event. (Tr. Vol. 3 at 118:3-9).
30. Prior to the construction of the Lancer Estates storm drainage system, a large percentage of the
water that ﬂowed through Lancer Estates drained east
of Bihler Road or past a point where it would have
drained onto the Property. (Id. at 98:21-100:20; Ex. 6A).

App. 17
31. The six drains in the Lancer Estates storm
drainage system that drain to Whites Creek #4 west of
Bihler Road range in diameter from 12 inches to 36
inches and have a peak capacity that ranges from 1.54
cfs to 29 cfs. (Tr. Vol. 3 at 116:11-120:14; Ex 5 at 7).
32. An additional source of runoff is an approximate 33-acre drainage area west and uphill from the
Property that consists of other Government Parcels
and Trails End Lane, which drains into Culvert #2 under Bihler Road or over Bihler Road onto the Property,
principally toward the area of the Property that Plaintiffs have graded. (Tr. Vol. 3 at 110:24-111:14; Ex. 84,
Figure 4; Site Visit, Apr. 13, 2018).
33. The ﬁrst time Plaintiffs had a problem with
ﬂooding on the Property was in 2005. (Tr. Vol. 1 at 51:911, 129:2-5). Plaintiffs did not discover what had occurred
with the upstream developments (Lancer Estates and
Monte Rosa) until 2010. (Id. at 144:22-145:13).
34. In 2005, a winter storm inundated the area.
(Tr. Vol. 1 at 51:9-11, 129:2-5). During the storm, water
ran through the Property, reached the Plaintiffs’ shop
and placed several inches of water, dirt and alluvial
soil in garage. (Id. at 51:18-52:12, 53:8-54:7). There was
no damage to the house, however, Plaintiffs did suffer
damage to their personal property in the garage. (Id.
at 52:21-53:7).
35. After the 2005 ﬂood, the Plaintiffs did not ﬁle
an insurance claim for any damage to the Property. (Id.
at 104:10-12).

App. 18
36. There was some winter storm activity in
2014. (Id. at 150:2-3, 159:5-6). No evidence was introduced regarding ﬂooding of the Plaintiffs’ home, shop
or garage, however, water pooled in the southeastern
graded portion of the Property. (Ex. 28 at 5).
37. In 2017, a series of atmospheric river events
caused historic amounts of water and snow melt in the
region. (Tr. Vol. 3 at 219:15-220:9). Ultimately, this led
to two Presidentially-declared ﬂood disasters. (Id. at
219:17).
38. The 2017 storms caused the Whites Creek
watershed to overﬂow into Whites Creek #4. (Id. at
151:12-16).
39. The Property ﬂooded during the 2017 storm.
(Ex. 20). Plaintiffs contend that the ﬂooding on the
Property was the result of the public improvements associated with Lancer Estates, Mt. Rose Highway and
Monte Rosa and has gradually increased over time as
upland developments matured. (Ex. 20 and Ex. 26, generally).
40. Plaintiffs’ expert testiﬁed that the ﬂooding
on the Property is beyond the ability of the Plaintiffs
to resolve because it would require the use of land not
owned by the Plaintiffs and the construction of a drainage system similar to what has been constructed in a
neighboring housing development. (Tr. Vol. 2 at 13:615).
41. Exhibit 47, a video taken by Mrs. Fritz of the
2017 storm activity. shows large amounts of water

App. 19
coming from the overﬂow of Whites Creek #4, heading
north on Bihler road and ﬂooding the Property. (Tr. Vol.
1 at 85:9-15).
42. The Defendant’s expert claims that the
Lancer Estates storm drainage system is designed to
capture only frequent storm event ﬂows from the subdivision and that during more extreme events (like the
2017 storm), much of the storm water bypasses the
drainage system inlets and continues to run in the
streets where it exits the subdivision into Whites
Creek east of Bihler Road below the Property and did
not cause the ﬂooding. (Ex. 84 at 12-13, Figure 3).
43. The ﬂows of Whites Creek #4 exceeded the
capacity of Culvert #1. (Id. at 75:2-8). Culvert #1 was
overtopped with water. (Id.) Flood water spread to the
north along and over Bihler Road onto adjoining properties, including the Property causing erosion, scarring
and changes to the topography on the graded portion
of the Property. (Ex. 44 at 2; Ex. 84 at 44; Ex 47). This
erosion was pronounced in the area of the 33-foot easement and at the outlet of Culvert #2. (Id.) Scarring of
the graded area is apparent on southern side of the
Property. (Id.; Site Visit).
44. During the 2017 storm, the Fritzes’ house,
garage, and shop received no water damage or ﬂooding
of any kind. (Tr. Vol. 1 at 174:9-22). Their landscaping
and the areas around on the northern half of the Property received no damage. (Tr. Vol. 1 at 174:20-22).

App. 20
45. Washoe County has not instituted formal eminent domain proceedings to condemn the Property.
(List of Undisputed Facts at ¶ 8).
46. Washoe County has not paid just compensation for the Property. (Id. at ¶ 9).
II.

CONCLUSIONS OF LAW AND ANALYSIS

The Takings Clause of the United States Constitution provides that private property shall not “be
taken for public use, without just compensation.” U.S.
Const. amend. V. Similarly, the Nevada Constitution
provides that “[p]rivate property shall not be taken for
public use without just compensation having been ﬁrst
made.” Nev. Const. art. 1, § 8(6). When a governmental
entity takes property without just compensation, or initiating an eminent domain action, an aggrieved party
may ﬁle a complaint for inverse condemnation. State,
Dep’t of Transp. v. Cowan, 120 Nev. 851, 854, 103 P.3d
1, 3 (2004).
A.

Standing

The Defendant contends that Plaintiffs do not
have standing because their claim in inverse condemnation is barred by the statute of limitations, and that
if any taking occurred, it occurred prior to the Plaintiffs’ purchase of the Property in 2001, since this is
when the bulk of the activity that is alleged to have
caused the ﬂooding on the Property occurred. (Washoe

App. 21
Cnty’s Closing Arg. 10:6-7, Apr. 17, 2018). Plaintiffs’
contend that the taking occurred when the ﬂooding
commenced in 2005. (Pl.’s Post-Trial Br. In Lieu of Closing Arg. 4:24-25, Apr. 17, 2018).
The Nevada Supreme Court has held that the ﬁfteen-year statute of limitations set forth in NRS
40.090 applies where a party contends that there has
been a taking of property by a governmental entity.
White Pine Lumber v. City of Reno, 106 Nev. 776, 780,
801 P.2d 1370, 1371 (1990). Accordingly, the Plaintiffs
are required to have commenced this case within ﬁfteen years of the alleged taking. As to when the taking
occurred, the Nevada Supreme Court has held that
“[t]akings claims lie with the party who owned the
property at the time the taking occurred.” Argier v. Nev.
Power Co., 114 Nev. 137, 139, 952 P.2d 1390, 1391
(1998). (Emphasis added). A taking occurs when the
government encroaches upon or occupies private land
for its own proposed use. Palazzolo v. Rhode Island, 533
U.S. 606, 617, 125 S. Ct. 2448, 2457 (2001). While the
bulk of the activity that is claimed to have caused the
ﬂooding did indeed take place prior to the Plaintiffs
taking ownership of the Property in 2001, the evidence
in this case shows that the ﬁrst encroachment on the
Property (i.e., ﬂooding) took place in 2005, after the
Plaintiffs took ownership of the property. Pursuant to
Algier and Palazzolo, this is the operative event for
purposes of determining whether a taking has occurred. Plaintiffs commenced this action in 2013, eight
years after the initial ﬂooding event and well within
the ﬁfteen-year statute of limitations.

App. 22
The Defendant’s claim that the Plaintiffs’ lack
standing is not only contrary to the case law set forth
above, it is contrary to the fair and balanced application of the Takings Clause as recognized by the U.S.
Supreme Court. In Palazzolo the U.S. Supreme Court
considered whether the petitioner’s acquisition of title
after a regulations’ effective date barred his takings
claim. In ﬁnding that the petitioner’s claim was not
barred, the U.S. Supreme Court held:
Petitioner’s acquisition of title after the regulations’ effective date did not bar his takings claims. This Court rejects the State Supreme Court’s sweeping rule that a purchaser
or a successive title holder like petitioner is
deemed to have notice of an earlier-enacted
restriction and is barred from claiming that it
effects a taking. Were the Court to accept that
rule, the postenactment transfer of title would
absolve the State of its obligation to defend
any action restricting land use, no matter how
extreme or unreasonable. A State would be allowed, in effect, to put an expiration date on
the Takings Clause. This ought not to be the
rule. Future generations, too, have a right to
challenge unreasonable limitations on the use
and value of land.
Id. at 608, 125 S. Ct. at 2453.
This Court notes that the instant case is based
on a possessory taking and not a government enacted
regulation, but ﬁnds Palazzolo analogous nonetheless.
Accepting the Defendant’s argument would result in
absolving the government from a former owner’s claim

App. 23
since the encroachment did not occur during their ownership, and would absolve the government from the
Plaintiffs’ claim because the Plaintiffs did not timely
commence their case, which ripened before they owned
the Property.
Accordingly, this Court ﬁnds that Plaintiffs have
standing to pursue their claim for inverse condemnation.
B.

Inverse Condemnation

Inverse condemnation requires a party to demonstrate the following: (1) a taking (2) of real or personal
interest in private property (3) for public use (4) without just compensation being paid (5) that is proximately caused by a governmental entity (6) that has
not instituted formal proceedings. Fritz v. Washoe Cty.,
132 Nev. Adv. Op. 57, 376 P.3d 794, 796 (2016), reh’g
denied (Oct. 27, 2016), reconsideration en banc denied
(Dec. 21, 2016).2
1.

Proximate Cause

There are two main issues regarding proximate
cause this Court must address: 1) whether government
activities can constitute substantial involvement in
the development of private land for public use which
unreasonably injured the property of another; and 2)
whether the design, construction, or maintenance of
2

This Court addresses the elements of inverse condemnation
in the order in which the factual chronology of the case occurred.

App. 24
the improvement is a proximate cause of the damage.
Fritz v. Washoe Cty., 132 Nev. Adv. Op. 57, 376 P.3d 794,
797 (2016).
i.

Substantial Involvement

When a private party and a government entity act
in concert, government responsibility for any resulting
damage to other private property may be established
by demonstrating that the government entity was
substantially involved “in the development of private
lands for public use which unreasonably injure[d] the
property of others.” Fritz, 132 Nev. Adv. Op. 57, 376 P.3d
at 797 (citing Cty. of Clark v. Powers, 96 Nev. 497, 505,
611 P.2d 1072, 1077 (1980)). “It is well-established that
the mere planning of a project is insufﬁcient to constitute a taking for which an inverse condemnation action
will lie.” Fritz, 132 Nev. Adv. Op. 57, 376 P.3d at 797
(quoting Sproul Homes of Nev. v. State, Dep’t of Highways, 96 Nev. 441, 443, 611 P.2d 620, 621 (1980)). Further, the mere approving of subdivision maps, on its
own, does not does not [sic] convert the private development into a public use that gives rise to inverse condemnation liability. Fritz, 132 Nev. Adv. Op. 57, 376
P.3d at 798 (citing Ullery v. Contra Costa County, 202
Cal.App.3d 562, 248 Cal.Rptr. 727 (1988)).
In Fritz, the Supreme Court overturned the District Court’s grant of summary judgment issued in
favor of Washoe County, stating that “inverse condemnation is a viable theory of liability and genuine issues
of material fact remain as to the County’s substantial

App. 25
involvement in the development of the drainage system at issue.” Fritz, 132 Nev. Adv. Op. 57, 376 P.3d at
795. The Supreme Court acknowledged that Fritz is
distinguishable from Powers, noting that the county in
Powers was held liable for inverse condemnation for
acting in conjunction with various private parties to
cause large amounts of water to be cast upon the plaintiffs’ land which included “participat[ing] actively in
the development of these lands, both by its own planning, design, engineering, and construction activities
and by its adoption of the similar activities of various
private developers as part of the County’s master plan
for the drainage and ﬂood control area.” Fritz, 132 Nev.
Adv. Op. 57, 376 P.3d at 797 (citing Cty. of Clark, 96
Nev. at 505, 611 P.2d at 1074.3 The Supreme Court further noted that drawing the distinction with Powers
was not dispositive of the substantial involvement issue in Fritz. While the Supreme Court has not limited
the range of actions that constitute substantial involvement to physical engagement in private activities
as was present in Powers, they have nonetheless, provided that claims based on mere planning are outside
the scope of substantial involvement. Fritz, 132 Nev.
Adv. Op. 57, 376 P.3d at 797 (quoting Sproul Homes of
Nev., 96 Nev. at 443, 611 P.2d at 621).
3

Ultimately, the “collecting waters interfered seriously with
the respondents’ use and enjoyment of their land, and became
a breeding ground for stench, mosquitoes and disease.” Cty. of
Clark, 96 Nev. at 505, 611 P.2d at 1074. The court found that the
county had taken the Powers parcel “in its entirety: the property
no longer had a practical use other than as a ﬂood channel.” Id. at
1075.

App. 26
The Supreme Court noted that Fritz presents a
novel question: “whether government activities short
of physical labor, but with more engagement than mere
planning, can constitute substantial involvement in a
private development sufﬁcient to constitute public use
in support of an inverse condemnation.” Fritz, 132 Nev.
Adv. Op. 57, 376 P.3d at 797. (Emphasis added). The
Supreme Court noted that the Plaintiffs provided evidence that, among other activities, Washoe County
formally accepted dedications of the streets in the developments and entered into an agreement with the
Nevada Department of Transportation to direct water
from the developments north into Whites Creek, rather than to allow the water to follow its natural path
down Mt. Rose Highway. This conﬂuence of activity led
the Supreme Court to declare the Plaintiffs’ claim for
inverse condemnation “actionable.” Id. at 798.
Given the direction provided by the Supreme
Court, it is incumbent on this Court to determine if
Washoe County’s actions rose to the level of “substantial involvement” sufﬁcient to constitute public use in
support of inverse condemnation. The following facts
in this case substantiate the ﬁnding that the Defendant’s involvement was substantial.4
In 1984, a tentative map was approved by Washoe
County for the Lancer Estates subdivision development.
A resubmittal of the tentative maps was approved in
4

Whether this substantial involvement constituted public
use in support of inverse condemnation is addressed below in Paragraph (1)(ii).

App. 27
1990. Between 1988 and 2001, Washoe County accepted
the roadway dedications of Lancer Estates Units 1 and
Unit 11. Washoe County accepted dedication of the
storm water system in Lancer Estates. By accepting
dedication, Washoe County is responsible for the operation, maintenance, repair, replacement, snow plowing,
et cetera of the public improvement.
Approval of the ﬁnal map for Lancer Estates resulted in evacuating the Lancer Estates runoff into
Whites Creek #4 west of Bihler Road, requiring it to
ﬂow through Culvert #1 when, prior to the development of Lancer Estates the parties agree that the vast
majority of the runoff from Lancer Estates evacuated
east of Bihler Road or beyond Culvert #1. The signiﬁcance of this is that the Property is located on the east
side of Bihler Road. Changing the point of evacuation
to the west side of Bihler Road meant that water would
be evacuated on the uphill side of Bihler Road before
reaching the Property as opposed to the downhill side
of Bihler Road, past the Property. This is relevant because the Plaintiffs claim that the water that entered
Whites Creek #4 before Culvert #1 from the Lancer Estates storm drainage system caused the ﬂooding on the
Property in 2017.
In 1990, Washoe County approved the deletion of
the detention ponds proposed by the developer for
Lancer Estates to manage the runoff at Lancer Estates. This constitutes action by the County that overrode the developers preferred method for addressing
the runoff and/or storm ﬂows from Lancer Estates.

App. 28
In April of 1994, Washoe County accepted a Preliminary Whites Creek Basin Management Study
(“Cella Bar Study”) prepared by Cella Bar Associates,
which had been commissioned by Washoe County to
study the hydrology of the Whites Creek area. The
Cella Bar Study indicates that “Existing Problem Areas” include “[s]ome of the residential lots backing up
adjacent to the south of [Whites Creek] Channel No. 4
have potential for ﬂooding during a 100-year event.”
(Ex. 4 at 15). The Plaintiffs’ Property is located in the
area identiﬁed as a problem area in the Cella Bar
Study. (Id.)
In June 1996, at the request of the NDOT, Washoe
County agreed to correct “a drainage problem on the
north side of SR-431 [Mt. Rose Highway] between Telluride Drive and Sundance Drive” by agreeing that all
ﬂows between Telluride Dr. and Sundance Dr. exceeding 10 cfs would be conveyed northerly through Lancer
Estates. Consequently, any drainage on the Mt. Rose
Highway that exceeded 10 cfs was added to the storm
ﬂows from Lancer Estates that would be discharged directly into Whites Creek #4.
Thereafter, in 2005, Washoe County approved the
ﬁnal map for Monte Rosa which included the installation of detention basins, two of which are interconnected to and discharge runoff through the storm drain
system in Lancer Estates, the contents of which drain
into Whites Creek #4, all to the west of Bihler Road.
Lancer Estates consists of 231 home sites. Monte
Rosa consists of 64 home sites. The Defendant’s expert

App. 29
testiﬁed that impervious surfaces on developed land
such as rooftops, streets and driveways increase runoff.
Accordingly, the development of Lancer Estates and
Monte Rosa increased runoff from these developments.
The facts in this case show that the Defendant undertook numerous actions over the course of a decade
that modiﬁed the natural drainage of Lancer Estates
causing the runoff from Lancer Estates, Monte Rosa
and the Mt. Rose Highway to be directed into the
Lancer Estates storm drainage system and discharged
into Whites Creek #4. Accordingly, this Court ﬁnds
that the actions of Washoe County are sufﬁcient to constitute substantial involvement in the development of
private lands and this Court turns to whether or not
the result of these actions constitute public use in support of inverse condemnation.
ii.

Causation

A taking must be proximately caused by a government entity. Fritz, 132 Nev. Adv. Op. 57, 376 P.3d at
797 (citing Guiterrez v. Cty of San Bernardino, 198
Cal.App. 4th 831, 130 Cal.Rptr.3d 482, 485 (2011)). Unlike Powers, where the water came from a single identiﬁable source (an ephemeral stream through which
water was increased, accelerated and diverted over the
entire length of the Powers parcel)5, the water that is
capable of ﬂooding the Property emanates from multiple sources including (1) the 11.2 mile Whites Creek
5

Cty. of Clark v. Powers, 96 Nev. 497, 501, 611 P.2d 1072,
1074 (1980).

App. 30
watershed that extends up the Sierra Nevada mountains and ﬂows into Whites Creek #4 during signiﬁcant
storm events, similar in nature to the storm in January
2017; (2) the 33-acre drainage area directly west of the
Property that accepts runoff from other Governmental
Properties and ﬂows over Trails End Lane through
Culvert #2 under and, at times, over Bihler Road and
onto the Property; (3) Bihler Road, which runs downhill south to north past the Property and which carries
water toward the Property; (4) the Lancer Estates
storm drainage system; and (5) Whites Creek #4. Defendant contends that the ﬁrst three of these sources
and the grading activity undertaken by the Plaintiffs
on the Property are the cause of the ﬂooding. Washoe
Cnty’s Closing Arg. 7:11-9:23, Apr. 17, 2018). Plaintiffs
contend that the ﬂooding was caused by the conﬂuence
of runoff from Lancer Estates, Monte Rosa and Mt.
Rose Highway that ﬂows through the Lancer Estates
storm drainage system into Whites Creek #4. (Pl.’s
Post-Trial Br. In Lieu of Closing Arg. 8:4-8; , Apr. 17,
2018).
While it is clear that the development activity related to Lancer Estates, Monte Rosa and the Mt. Rose
Highway changed the path of the runoff, increased the
runoff, and diverted it to Whites Creek #4 west of
Bihler Road, it is not clear that these activities were
the proximate cause of the ﬂooding that occurred on
the Property. The Defendant’s expert claims that the
storm drainage system is designed to capture only frequent storm event ﬂows from the subdivision and that
during more extreme events (like the 2017 storm),

App. 31
much of the storm water bypasses the drainage system
inlets and continues to run in the streets where it exits
the subdivision into Whites Creek east of Bihler Road
below the Property and did not cause the ﬂooding. The
capacity of the Lancer Estates storm drainage system
to evacuate large amounts of water as discussed above,
arguably undermines the statements of the Defendant’s expert, but there is no evidence in the record that
veriﬁes the amount of water that is evacuated from the
Lancer Estates storm drainage system during either
common or signiﬁcant storm events.6
Central to Plaintiffs’ claim regarding the source of
the ﬂooding on the Property is Plaintiffs’ Exhibit 47, a
video taken by Mrs. Fritz during the 2017 storm which
she testiﬁed shows large amounts of water coming
from the overﬂow of Whites Creek #4, heading north
on Bihler road and ﬂooding the Property. That White’s
Creek #4 is the source of the ﬂooding on the Property
as shown in Exhibit 47 was conﬁrmed by the Defendant’s expert witness. (Tr. Vol 3. at 192:23-193:6). Ms.
Fritz testiﬁed that the video shows that there is only a
“little bit” of water ﬂowing on Trails End Lane. (Tr. Vol.
1 at 83:13-192). The Defendant’s expert essentially
6

The Plaintiffs did not present information in this regard.
The Court undertook questioning of the Defendant’s expert regarding such measurements. (Tr. Vol. 3 at 191:16-20). The expert conﬁrmed that none were calculated since he did not deem
them relevant because the drainage from Lancer Estates is at
the very bottom of the watershed and would “report very quickly”
to Whites Creek #4 ahead of the Whites Creek runoff that ﬂows
far upstream and would show up much later during a storm
event. (Tr. Vol. 3 at 191:21-192:8).

App. 32
concurred with Mrs. Fritz and stated that there was no
water coming from Trails End Lane. (Tr. Vol. 3 at 107:39). Mrs. Fritz further stated that in Exhibit 47 the water on Bihler Road was coming from two sources: ﬁve
percent was ﬂowing down the left side of the road and
attributable to the storm; the other ninety-ﬁve percent
ﬂowing down the other side of Bihler road was attributable to the Whites Creek #4 overﬂow. The Defendant’s expert also agreed that the video shows very
little water on Bihler Road not attributable to Whites
Creek #4 overﬂow. (Id. at 193:9-12).
Plaintiffs contend that the video was taken at the
beginning of the 2017 storm and that the source of the
water that is overﬂowing from Whites Creek #4 and
ﬂooding the Property is from the Lancer Estates storm
drainage system. However, the Defendant’s expert disagrees. He contends that Exhibit 47 must have been
taken later in the storm since the amount of water
overﬂowing from Whites Creek #4 can only be from the
White’s Creek watershed which would only occur later
in the storm (as that is the time it takes for the water
from the Whites Creek watershed, high in the Sierra
Nevada mountains, to reach Culvert #1 under Bihler
Road); and moreover, it is not probable for the Lancer
Estates storm drainage system to produce that output
from the rainfall that occurred. (Id. at 194-22-195:3).
This Court ﬁnds that the principal source of the
water that is seen in Exhibit 47 that resulted in the
ﬂooding to the Property in 2017 is from the Whites
Creek watershed and not the Lancer Estates storm
drainage system. This must be the case given the

App. 33
evidence in Exhibit 47. The Lancer Estates storm
drainage system is a local source of runoff as is Bihler
Road and Trails End Lane. Accordingly, if the Lancer
Estates storm drainage system was evacuating the copious amount of runoff seen in Exhibit 47, the other
local sources of runoff—Bihler Road and Trails End
Lane, would also be experiencing signiﬁcant or at least
notable amounts of drainage at the same time. But as
testiﬁed to by Mrs. Fritz and the Defendant’s expert,
Exhibit 47 reveals that they were not. Moreover, as evidenced by the Site Visit, these three sources of runoff
are all literally within 5 minutes walking distance of
one another. It is not conceivable that one of them,
Lancer Estates, would be deluged by precipitation to
the extent that it was evacuating the water seen overﬂowing from Whites Creek #4 in Exhibit 47 while the
other two sources were dormant. While water from the
Lancer Estates storm drainage system was undoubtedly ﬂowing into Whites Creek #4, based on Exhibit 47
it could not have been making a substantial contribution.7
Accordingly, this Court ﬁnds that the actions of
Washoe County were not the proximate cause of the
ﬂooding on the Property and did not constitute a public
use in support of inverse condemnation and therefore,
the Plaintiffs’ claim for inverse condemnation fails.8
7

No similar evidence of the cause of the ﬂooding that occurred in 2005 was offered into evidence.
8
In spite of this ﬁnding, this Court undertakes a discussion
of whether the damage that occurred to the Property would have
amounted to a taking since this issue was raised by the Nevada

App. 34
2.

Taking

For a taking to occur, a claimant must have a
stick in the bundle of property rights. ASAP Storage,
Inc. v. City of Sparks, 123 Nev. 639, 647, 173 P.3d 734,
740 (2007). The bundle of property rights includes all
rights inherent in ownership, including the inalienable
right to possess, use, and enjoy the property. Id. At the
time of the alleged takings (2005 and 2017), Plaintiffs
owned the subject parcel in this dispute located at
14400 Bihler Road. (List of Undisputed Facts at ¶ 1).
Plaintiffs’ ownership interest carried with it the right
to possess, use, enjoy, and protect that property. Accordingly, Plaintiffs had a protected property interest in
their land.
A taking can arise when the government regulates or physically appropriates an individual’s private
property. Physical appropriation exists when the government seizes or occupies private property or ousts
owners from their private property. ASAP Storage,
Inc., 123 Nev. at 647, 173 P.3d at 740 (citing Lingle v.
Chevron U.S.A. Inc., 544 U.S. 528, 537, 125 S. Ct. 2074
(2005)). This case involves the actual physical invasion
of water on the Plaintiffs’ property.
A taking occurs where real estate is invaded by
superinduced additions of water so as to effectually
Supreme Court in Fritz v. Washoe County, 132 Nev. Adv. Op. 57,
376 P.3d 794 (2016). As to the remaining elements of inverse condemnation, the parties stipulated (1) that the Property is real
property; (2) that Washoe County has not paid just compensation
for the Property; and (3) that Washoe County has not instituted
formal eminent domain proceedings to condemn the Property.

App. 35
destroy or impair its usefulness. Clark Cty., 96 Nev. at
502, 611 P.2d at 1075 (citing Pumpelly v. Green Bay
Company, 80 U.S. (13 Wall.) 166, 181(1871). The result
is no different when property is subjected to intermittent, but inevitable ﬂooding that causes substantial injury. Clark Cty., 96 Nev. at 502, 611 P.2d at 1075 (citing
United States v. Cress, 243 U.S. 316, 328, 37 S. Ct. 380,
385 (1917)).
Plaintiffs contend there has been a taking as evidenced by the physical invasion of ﬂood waters and
substantial injury to the Property. Plaintiffs’ expert
Mr. Stoner testiﬁed that the ﬂooding on the Property
is beyond the ability of Plaintiffs to resolve because it
would require the use of land not owned by Plaintiffs
and the construction of a drainage system similar to
what has been constructed in a neighboring housing
development. Further, Plaintiffs aver that the FEMA
ﬂoodplain moved further onto the Property since it was
purchased by the Plaintiffs.
The Defendant argues Plaintiffs have been able to
prove only minor property damage compared to the
substantial injury required for the taking element of
an inverse condemnation claim. (Def ’s Closing Arg.
at 2:5-7). The intermittent ﬂooding on the Plaintiffs’
Property does not amount to a “substantial injury.” (Id.
at 2:15-22). Plaintiffs further exacerbated injury to the
Property due to Plaintiffs’ building of the boulder berm
placed on the west side of the Property and Plaintiffs’
grading of the Property. (Id. at 2:23-3:9). As to the
FEMA maps, Defendant contends that changes to the
2009 ﬂood map were FEMA’s decision, not Washoe

App. 36
County’s, and no evidence was presented as to why
FEMA decided to change the boundaries therein. (Id.
at 3:10-4:2). Further, Plaintiffs leased the Property
from 2002 to 2015 and currently reside on the Property,
thus Plaintiffs have not been deprived of the Property’s
economically beneﬁcial use due to the ﬂooding. (Id. at
4:3-9).
The evidence presented at trial shows that the
ﬂooding on the Property has not been continuous.
Plaintiffs testiﬁed that the ﬁrst time the Property
ﬂooded was in 2005 during which several inches of water ﬂooded their shop. In 2014, water pooled in the
southeastern graded portion of the Property due to
winter storm conditions. In 2017, there was an historic
amount of water and snow melt in the region, causing
Whites Creek #4 to overﬂow and ﬂood the Property.
The ﬂows of Whites Creek #4 exceeded the capacity of
Culvert #1, causing runoff to spread to the north along
and over Bihler Road onto the adjoining properties, including the Plaintiffs’ property.
The foregoing evidence shows that the Plaintiffs’
property was flooded in 2005 and 2017, and suffered
from pooling of water in 2014. The inevitability of
flooding on the Property is almost exclusively related
to extreme weather conditions that occurred twice in
twelve years, and there was no evidence presented
that proved or disproved the likelihood of reoccurring
flooding on the Property. Flooding not shown to be
inevitably recurring occupies the category of mere
consequential injury or tort. Pinkham v. Lewiston Orchards Irr. Dist., 862 F.2d 184, 189 (9th Cir. 1988). “To

App. 37
constitute a compensable taking by inverse condemnation where no permanent ﬂooding of land is involved,
proof of frequent and inevitably recurring inundation
due to governmental action is required.” Id. (citing
United States v. Cress, 243 U.S. 316, 328, 37 S. Ct. 380,
385 (1917). In Pinkham, the Court stated that two
ﬂoodings occurring in 1959 and 1984 (within twentyﬁve years of one another) were insufﬁcient to amount
to a constitutional taking. This case is not identical to
but is comparable to Pinkham, in that the Property
was subject to only two ﬂoodings over a twelve year
period.
Further, the ﬂooding on Plaintiffs’ property, which
consisted of erosion and channeling on the south side
of the parcel in the graded area away from the house,
shop and garage, was not sufﬁcient to show that it destroyed or impaired its usefulness such that there was
substantial injury to the Property. See Clark Cty., 96
Nev. at 502, 611 P.2d at 1075. The evidence presented
and stipulated to by the parties, shows that Plaintiffs
purchased the Property on August 24, 2001. The testimony presented at trial provides that for the past seventeen years, John Fritz has continued to use the shop
for storage of his personal property, which ﬂooded once
in 2005. (Tr. Vol. 1 at 50:1-3, 191:3-7). In 2015, following
the ﬁling of the Complaint in this case, Plaintiffs
moved onto the Property and still live there. Subsequent to purchasing the Property, Plaintiffs have not
only used the land, but have generated revenue in the
amount of $166,000.00 by leasing the Property to various tenants.

App. 38
It is clear to the Court, based on the foregoing, that
the Property has been used for practical purposes
other than as a ﬂood channel. See Clark Cty., 96 Nev.
at 501-502, 611 P.2d at 1075 (stating that the lower
court found that the county had taken the subject parcel in its entirety because the property no longer had a
practical use other than as a ﬂood channel). This Court
does not ﬁnd that an appropriation, occupation or seizure of the Property has taken place sufﬁcient to prove
that a taking has occurred.
Accordingly, and good cause appearing,
IT IS HEREBY ORDERED AND ADJUDGED
that judgment is entered in favor of the Defendant
Washoe County on Plaintiffs John Fritz and Melissa
Fritz’s Claim for Inverse Condemnation.
DATED this 24th day of April, 2017.
/s/ KATHLEEN DRAKULICH
DISTRICT JUDGE

CERTIFICATE OF SERVICE
I hereby certify that I am an employee of the Second Judicial District Court of the State of Nevada, in
and for the County of Washoe; and that on this date I
electronically ﬁled the foregoing with the Clerk of the
Court by using the ECF system which will send a notice of electronic ﬁling to the following:

App. 39
STEPHAN J. HOLLANDSWORTH, ESQ.
MICHAEL W. LARGE, ESQ.
LUKE ANDREW BUSBY, ESQ.
DATED this 24th day of April, 2018.
/s/ Danielle Kent
DANIELLE KENT
Judicial Assistant

App. 40
IN THE SUPREME COURT
OF THE STATE OF NEVADA
No. 75693

JOHN FRITZ; AND
MELISSA FRITZ,
Appellants,
vs.
WASHOE COUNTY,
Respondent.

ORDER DENYING REHEARING
(Filed Aug. 29, 2019)
Rehearing denied. NRAP 40(c).
It is so ORDERED.
/s/ Pickering
Pickering

, J.

/s/ Parraguirre
Parraguirre

, J.

/s/ Cadish
Cadish

, J.

cc: Hon. Kathleen M. Drakulich, District Judge
Luke A. Busby
Washoe County District Attorney/Civil Division
Fennemore Craig P.C./Reno
Blanchard, Krasner & French
Washoe County District Court Clerk

App. 41
IN THE SUPREME COURT
OF THE STATE OF NEVADA
No. 75693

JOHN FRITZ; AND
MELISSA FRITZ,
Appellants,
vs.
WASHOE COUNTY,
Respondent.

ORDER DENYING EN BANC RECONSIDERATION
(Filed Nov. 22, 2019)
Having considered the petition on ﬁle herein, we
have concluded that en banc reconsideration is not
warranted. NRAP 40A. Accordingly, we
ORDER the petition DENIED.
/s/ Gibbons
Gibbons

, C.J.

/s/ Pickering
Pickering

, J.

/s/ Hardesty
Hardesty

, J.

/s/ Parraguirre
Parraguirre

, J.

/s/ Stiglich
Stiglich

, J.

/s/ Cadish
Cadish

, J.

/s/ Silver
Silver

, J.

App. 42
cc: Hon. Kathleen M. Drakulich, District Judge
Luke A. Busby
Washoe County District Attorney/Civil Division
Fennemore Craig P.C./Reno
Blanchard, Krasner & French
Washoe District Court Clerk

App. 43
Luke Busby, Esq.
Nevada Bar No. 10319
316 California Ave
Reno, NV 89509
775-453-0112
luke@lukeandrewbusbyltd.com
Attorney for John and Melissa Fritz
IN THE SUPREME COURT
OF THE STATE OF NEVADA
JOHN AND MELISSA FRITZ,
Plaintiff-Appellants,
vs.

CASE NO. 75693

WASHOE COUNTY,
Defendant-Respondent,

/

PETITION FOR EN BANC RECONSIDERATION
(Filed Sep. 10, 2019)
The Appellants, JOHN AND MELISSA FRITZ, petition this Court, pursuant to Nevada Rule of Appellate
Procedure (“NRAP”) 40A, to reconsider its May 31,
2019 Order of Afﬁrmance. This petition presents the
following primary issue:
If such use does not destroy all economic
uses of a property, then may the government
intentionally superinduce, divert, and drain
surface ﬂoodwaters from a highway and housing developments through private property
without ﬁrst paying just compensation without violating the takings clauses of the 5th

App. 44
Amendment to the United States Constitution and Article 1 Section 8(3) of the Nevada
Constitution?
The conclusion of law in the Order of Afﬁrmance
that for substantial injury to exist, an intermittent
but inevitable physical invasion of surface drainage
waters must effectually destroy or impair a property’s
economic usefulness1 is inconsistent with the United
States Supreme Court and this Court’s takings jurisprudence because this ruling confounds differing
standards stated in prior cases for different types of
ﬂooding cases. This Court should grant this petition to
secure and maintain uniformity in its decisions regarding what constitutes a taking in cases involving
the drainage of surface waters by the government
through downstream private lands.
Background
The facts in this case revolve around Washoe
County’s own development activities and substantial
involvement in the development of land by private parties upstream of the Fritzes’ property.
At a November 14, 2017, Final Pre-Trial Conference, the District Court bifurcated the trial in this matter into liability and damages phases. AA Vol. 1 at 187.
In April of 2018, the District Court held a bench trial
in the liability phase of this matter and issued the District Court’s Findings of Fact, Conclusions of Law and
1

See Order of Afﬁrmance at 5.

App. 45
Judgment After Bench Trial (“District Court’s Order”
at AA. Vol. 5 at 914) on April 24, 2018. The District
Court found the following facts:
(1) Whites Creek No. 4 drains through the Fritzes
property and is an ephemeral stream that only ﬂows
in response to local precipitation and runoff. Id. at 915919.
(2) Lancer Estates and Monte Rosa are two subdivisions upstream from the Fritzes property along
Whites Creek No. 4 consisting of 231 homes in Lancer
Estates and 64 homes in Monte Rosa (Id. at 917-918);
(3) Washoe County directed the developers of
Lancer Estates to divert all water above 10 Cubic Feet
per Second (“CFS”) ﬂowing from Mt. Rose Highway
through Lancer Estates and into Whites Creek No. 4
(Id.);
(4) The development of Lancer Estates and
Monte Rosa created a large area of impervious surfaces that increased stormwater runoff into Whites
Creek No. 4 by virtue of the construction of rooftops,
streets, and driveways, resulting in increased runoff as
compared to predevelopment conditions (Id.); and
(5) The water from Mt. Rose Highway and the
stormwater runoff from Lancer Estates and Monte
Rosa are diverted into Whites Creek No. 4 through the
Fritzes property, where before development, the water
from Mt. Rose Highway, Lancer Estates, and Monte
Rosa ﬂowed into Whites Creek No. 4 below the Fritzes
property. Id. at 919-920.

App. 46
At trial, the District Court admitted the following
evidence showing ﬂooding conditions on the Fritzes
property:
(1) Trial Exhibit 23, which are photos that depict
ﬂooding damages on the Fritzes property from early
2017 (AA Vol. 6 at 1302-1307);
(2) Trial Exhibit 28, which are photos that depict
ﬂooding on the Fritzes property in August of 2014 (AA
Vol. 6 at 1340-1344);
(3) Trial Exhibit 30, which are photos that depict
damages and ﬂooding on the Fritzes property occurring in early 2017 (AA Vol. 6 at 1345-1381);
(4) Trial Exhibit 47, which is a video showing the
early 2017 storm occurring and water from Whites
Creek #4 ﬂooding the Fritzes property (AA Vol. 6 at
1384); and
(5) Trial Exhibit 51, which is a video that shows
the Fritzes expert following the path of water from
Whites Creek #4 to the Fritzes property and explaining how the 2017 ﬂooding and damage to the property
occurred. AA Vol. 7 at 1401.
Use of the Fritzes property for surface water
stormwater drainage was intentional and foreseeable
and was planned by Washoe County in coordination
with the developers of Lancer Estates and Monte Rosa.
Although construction of the developments started in
the mid-1990s, John Fritz testiﬁed that he did not
know what was causing the ﬂooding on the property
until he discovered the “NDOT Letter” in Trial Exhibit

App. 47
14 in 2010. AA Vol. 6 at 1220. The NDOT letter was
authored by a District Engineer at the Nevada Department of Transportation on June 13, 1996 and proves
that Washoe County directed the developers of Lancer
Estates to transfer all water in excess of 10 CFS from
Mt. Rose Highway into Whites Creek No. 4. AA Vol. 2
at 378-380. Trial Exhibit 1, which is a 1990 letter from
CFA, the engineering ﬁrm that designed Lancer Estates, showed that Washoe County and the developers
of Lancer Estates knew that development of the site
would increase runoff into Whites Creek No. 4 through
the Fritzes property. AA Vol. 5 at 977-978. The CFA letter states, “In addition, the increased runoff caused
by this development will not be retained on site.” [emphasis added] See trial exhibit 1 at AA Vol. 5 at 978
compared to Order at AA Vol. 5 at 918:14. The District
Court found that:
The Lancer Estates storm drainage system
was designed to carry out the directive from
Washoe County to divert water from Mt. Rose
Highway that exceeded 10 cfs through Lancer
Estates and into Whites Creek #4.
AA Vol. 5 at 919.
The District Court found that the ﬂooding on the
Fritzes property from Whites Creek No. 4 resulted in
erosion and channeling on the graded portion of
Fritzes property away from the structures on the property, which constitutes approximately one half of the

App. 48
2.5-acre parcel. Id. at 914 and 933.2 The District Court
further concluded that because Washoe County took
numerous actions that modiﬁed the natural course of
drainage of surface waters of Lancer Estates, Monte
Rosa, and Mt. Rose Highway, that Washoe County’s actions constituted substantial involvement in the development of private lands for which Washoe County
could be held liable in inverse condemnation. AA Vol. 5
at 926. Fritz v. Washoe County, 132 Nev. 580, 586, 376
P.3d 794, 798 (2016). The District Court’s Order also
found that Washoe County’s expert did not dispute that
water was diverted from Mt. Rose Highway and did not
address water from Mt. Rose Highway. Id. at 919.
Despite the evidence presented at trial showing
the damages to the Fritzes property, the District
Court’s Order and this Court’s Order of Afﬁrmance
concluded that no taking occurred in this case because
the Fritzes property otherwise has some economic use,
that there was no substantial injury. See AA Vol 5 at 916
and Order of Afﬁrmance at 5. This Court issued the Order of Afﬁrmance without conducting oral argument.
Standard of Review
Under NRAP 40A(a), en banc reconsideration is
warranted where reconsideration by the full court is
necessary to secure or maintain uniformity of decisions of the Supreme Court or Court of Appeals, or the
2

A photo of the Fritzes 2.5 acre property with boundaries may
be found at AA Vol. 6 at 1300, with associated photos of the area
suffering channeling and erosion in 2017 at AA Vol. 6 at 1302-1306.

App. 49
proceeding involves a substantial precedential, constitutional or public policy issues. This case squarely
meets these two standards because: (1) This case involves the fundamental Constitutional right to just
compensation when the government takes private
property for public use; and (2) The Order of Afﬁrmance departs from and confounds existing takings jurisprudence by authorizing physical invasion of
private property by the government unless a property
is entirely destroyed.
Argument
1. The Order of Affirmance is Directly Contrary
to Arkansas Game & Fish Comm’n v. United
States
In Arkansas Game & Fish Comm’n v. United
States, 568 U.S. 23, 133 S. Ct. 511, 184 L. Ed. 2d 417
(2012), the U.S. Supreme Court held that when the
government physically takes possession of an interest
in property for some public purpose, the government
has a categorical duty to compensate the owner under
the 5th Amendment. Id. at 518 citing Tahoe–Sierra
Preservation Council, Inc. v. Tahoe Regional Planning
Agency, 535 U.S. 302, 322, 122 S.Ct. 1465, 152 L.Ed.2d
517 (2002) citing United States v. Pewee Coal Co., 341
U.S. 114, 115, 71 S.Ct. 670, 95 L.Ed. 809 (1951).
Washoe County has expropriated the Fritzes property by taking an unlimited ﬂowage easement for the
public purpose of protecting upland houses in Lancer
estates and Monte Rosa and Mt. Rose Highway from

App. 50
ﬂooding. This conclusion follows ipso facto from the
facts found by the District Court described above and
as found by this Court in its Order of Afﬁrmance, i.e.
that Washoe County superinduced, diverted, and drained
surface waters into Whites Creek No. 4 and (at a minimum) the Fritzes property suffers channeling and erosion as a result. As stated in the NDOT Letter at AA
Vol. 5 at 1220, all storm ﬂows from Mt. Rose Highway
above 10 CFS were diverted through the Fritzes property, so there is no limit to the amount of water that
may ﬂow from that source through the Fritzes land.
The Arkansas Game & Fish Comm’n v. United
States Court stated that it accepted certiorari, “ . . . to
resolve the question whether government actions that
cause repeated ﬂoodings must be permanent or inevitably recurring to constitute a taking of property.” Id.
at 518. The Supreme Court ruled that: (1) a taking may
arise from a single ﬂooding event; (2) relevant to the
takings inquiry is the degree to which the invasion is
intended or is the foreseeable result of authorized government action; and (3) there is no “temporary-flooding”
exception to the takings clause. Id. at 512. It is clear
from the facts found by the District Court that Washoe
County and the developers of Lancer Estates and
Monte Rosa intended to use the Fritzes property as a
ﬂoodway and that ﬂooding has in fact occurred.
This Court’s Order of Afﬁrmance runs directly
afoul of the ruling in Arkansas Game & Fish Comm’n
v. United States by in practical effect authorizing
Washoe County to intentionally superinduce, divert,
and direct ﬂoodwaters onto the Fritzes property during

App. 51
storm events so long as the ﬂooding is temporary and
the resulting channeling and erosion does not render
the entirety of the property completely useless.
2. The Order of Afﬁrmance is inconsistent with,
confounds, and misstates the prior holdings of
this Court and the US Supreme Court regarding takings by the drainage of surface waters
In footnote 3 in Clark County v. Powers, 96 Nev.
497, 502, 611 P.2d 1072, 1075 (1980), this Court noted:
It has long been established that a taking occurs “where real estate is actually invaded by
superinduced additions of water . . . so as to
effectually destroy or impair its usefulness,”
Pumpelly v. Green Bay Company, 80 U.S. (13
Wall.) 166, 181, 20 L.Ed. 557 (1871), and the
result is no different when property is subjected to intermittent, but inevitable ﬂooding
which causes substantial injury, United States
v. Cress, 243 U.S. 316, 328, 37 S.Ct. 380, 385,
61 L.Ed. 746 (1917).
In Pumpelly v. Green Bay & Mississippi Canal Co.,
80 U.S. 166, 167, 20 L. Ed. 557, 13 Wall. 166 (1871), the
erection of a dam across a river by a canal company
raised the level of Lake Winnebago, and the superinduced water created by the dam invaded Pumpelly’s
property. Id. at 167. Under Pumpelly, where a property
is invaded by superinduced waters that effectually destroy or impair its usefulness a taking occurs. Almost
40 years after the Pumpelly decision, the Supreme
Court found that even where a property is only affected

App. 52
by intermittent ﬂoodwaters, a taking may still occur,
i.e., where intermittent but inevitable ﬂooding causes
substantial injury.3 In United States v. Cress, 243 U.S.
316, 328, 37 S.Ct. 380, 385 (1917), the building of a lock
and a dam created intermittent ﬂooding on Cress’ land
that was sure to recur due to the nature of the government improvement. Id. at 327. In Cress, the Court
found that even though Cress’ entire property did not
ﬂood and the value of Cress’ property only depreciated
by one-half, a taking still occurred, ruling that: “ . . . it
is the character of the invasion, not the amount of damage resulting from it, so long as the damage is substantial, that determines the question whether it is a
taking.” Id. at 328.
However, in the District Court’s Order and the Order of Afﬁrmance, for substantial injury to exist, the
physical invasion must effectually destroy or impair
any economic use of the property. See Order of Afﬁrmance at 4-5 citing Clark County v. Powers and AA Vol.
5 at 932, “ . . . Plaintiffs have not been deprived of
the Property’s economically beneﬁcial use due to the
3

The District Court’s Order found that “there was no evidence presented that proved or disproved the likelihood of reoccurring ﬂooding on the Property.” AA Vol. 4 at 932. This ﬁnding
is clearly erroneous as the District Court otherwise found that
water from Mt. Rose Highway and the stormwater runoff from
Lancer Estates and Monte Rosa was diverted into Whites Creek
No. 4 through the Fritzes property, where prior to development,
the water from Mt. Rose Highway, Lancer Estates, and Monte
Rosa f lowed into Whites Creek No. 4 below the Fritzes property.
Id. at 919-920. Jackson v. Groenendyke, 369 P.3d 362, 365 (Nev.
2016). The fact that the water at issue is being diverted through
permanent infrastructure by deﬁnition means that the ﬂooding
will inevitably occur.

App. 53
ﬂooding.” These rulings confound the two different
standards described in the Pumpelly and Cress decisions, which analyze two separate types of ﬂooding situations. The result is an unprovable standard for
intermittent surface water ﬂooding cases. This is the
case because property that is subject to intermittent
ﬂooding, but is not always ﬂooded or where only part
of the property is ﬂooded, will have some usefulness
when not ﬂooded, as the Fritzes property does. The US
Supreme Court grappled with a similar situation in
United States v. Dickinson, 331 U.S. 745, 751, 67 S. Ct.
1382, 1386, 91 L. Ed. 1789 (1947), and found a taking
had occurred although Dickinson was not deprived of
all economic uses and had reclaimed most of the damaged land after the initial ﬂooding events occurred:
. . . no use to which Dickinson could subsequently put the property by his reclamation
efforts changed the fact that the land was
taken when it was taken and an obligation to
pay for it then arose.
Id. at 751.
Returning to Arkansas Game & Fish Comm’n v.
United States, the US Supreme Court explained how
Cress expanded the scope of takings claims based on
ﬂooding beyond the test established in Pumpelly:
Following Pumpelly, the Court recognized
that seasonally recurring ﬂooding could constitute a taking. United States v. Cress, 243
U.S. 316, 37 S.Ct. 380, 61 L.Ed. 746 (1917), involved the Government’s construction of a
lock and dam, which subjected the plaintiff ’s

App. 54
land to “intermittent but inevitably recurring
overﬂows.” Id., at 328, 37 S.Ct. 380. The Court
held that the regularly recurring ﬂooding
gave rise to a takings claim no less valid than
the claim of an owner whose land was continuously kept under water. Id., at 328–329, 37
S.Ct. 380.
Arkansas Game & Fish Comm’n v. United States, 568
U.S. at 32, (2012).
The Arkansas Game & Fish Comm’n v. United
States decision lowered the bar for intermittent ﬂooding cases even more than Cress by holding that a single
ﬂooding event intentionally caused by the government
gives rise to a taking claim. Id. at 512.
The problem that the Fritzes face, and that any
similarly situated property owner in similar circumstances will face if the Order of Afﬁrmance stands, is
that there is no limit to any degree of ﬂooding that
would be permitted to occur on their property due to
the intentional diversion of water from the permanent
stormwater drainage infrastructure in Lancer Estates,
Monte Rosa, and Mt. Rose Highway. A sufﬁciently
large storm may very well destroy the Fritzes home,4
and the portion of the Fritz property that has already
been ﬂooded, approximately half of their 2.5-acre parcel, is not reasonably suitable for any use or development because the Fritzes know that it will ﬂood again.
4

See Stoner report at AA Vol. 5 at 1289 “ . . . and when the
100-year ﬂood event planned for during design of Sterling Ranch
ﬁnally occurs, damages to the Subject Parcel [the Fritzes property] will likely be disastrous.”

App. 55
But the Fritzes cannot wait for such an extreme event
to bring their claim: “An owner of land ﬂooded by the
Government would not unnaturally postpone bringing
a suit against the Government for the ﬂooding until
the consequences of inundation have so manifested
themselves that a ﬁnal account may be struck.” United
States v. Dickinson, 331 U.S. 745, 749, 67 S. Ct. 1382,
1385, 91 L. Ed. 1789 (1947).
In footnote 1, the Court’s Order of Afﬁrmance concludes that the Fritzes argument that the incorrect
standard of law was applied by the District Court was
without merit because the District Court cited both
Clark County v. Powers and ASAP Storage, Inc. v. City
of Sparks, 123 Nev. 639, 173 P.3d 734 (2007). But the
words “substantial injury” only appear in the Clark
County v. Powers in footnote 3 quoted above where the
Pumpelly and Cress cases are separately described,
and the term is not otherwise deﬁned in Clark County
v. Powers in the manner the Court deﬁned the term in
its Order of Afﬁrmance at pages 4 and 5. Further, the
Order of Afﬁrmance, in analyzing the standard set
forth in footnote 3, incorrectly states on page 5 that the
“requirement” is no different, but the Clark County v.
Powers Court states in footnote 3 that the “result” is no
different. By substituting the word “requirement” for
the word “result,” the meaning of footnote 3 in Clark
County v. Powers is confounded such the two standards
from Pumpelly and Cress appear to be the same when
they are not.
The Order of Afﬁrmance further concluded that
the District Court did not err by applying the “ouster”
takings standard in ASAP Storage, Inc. v. City of

App. 56
Sparks, 123 Nev. 639, 648, 173 P.3d 734, 741 (2007) in
determining whether “substantial injury” occurred on
the Fritzes property. See Order of Afﬁrmance at fn. 1.
The words “substantial injury” do not appear in the
ASAP Storage, Inc. v. City of Sparks decision at all, because the ASAP Storage case involved allegations of
a taking by substantial interference with property
rights, i.e. a taking by physical appropriation or
“ouster” as an emergency measure. The ASAP Storage
case did not involve an allegation that the City of
Sparks caused ﬂooding via surface water drainage, but
rather involved whether the response to the ﬂood by
the City appropriated ASAP Storage Inc.’s property by
barricading off access to the property such that they
were unable to remove their property before the ﬂoodwaters destroyed it. Id. at 641-642. Application of the
ASAP Storage standard by the District Court to the
Fritzes claim was in error because the takings claim in
ASAP Storage involves an entirely different type of
taking standard, i.e. for “ouster,” not the standard for
cases involving physical invasion and substantial injury caused speciﬁcally by the drainage of surface
waters. By applying the “ouster” standard in ASAP
Storage, this Court and the District Court are imposing an incorrect and inapplicable standard from a different type of taking to the Fritzes drainage of surface
waters claim.
In 2015 this Court held that a plaintiff in an inverse condemnation takings action speciﬁcally involving the drainage of surface waters must show
both a physical invasion of ﬂoodwaters and resulting

App. 57
substantial injury. Buzz Stew, LLC v. City of N. Las Vegas, 131 Nev. Adv. Op. 1, 341 P.3d 646, 650 (2015). In
Buzz Stew, the Court found that no taking occurred
based on the following ﬁnding of facts:
Although Buzz Stew presented evidence that
during a 100—year ﬂood event water may
pool on one corner of the property, the evidence did not demonstrate that any pooling
had occurred while Buzz Stew owned the
property or that Buzz Stew suffered any substantial injury from any water diversion.
Id. at 650.
Thus, under the Buzz Stew decision, it follows that
a taking may be shown where water pooing [sic] on a
property occurs, but in the Order of Afﬁrmance, this
Court concluded, “Washoe County responds that the
Fritzes were not substantially injured, as required by
Buzz Stew, because water pooling on a property during
a storm event is not substantial injury. We agree.” Order of Afﬁrmance at 3-4. Even though this case was
ﬁrst ﬁled on April 4, of 2013 (AA Vol. 1 at 1) at trial the
Fritzes presented evidence of multiple actual ﬂooding
events at their property resulting from the diversions
at issue in 2005, 2014, and in 2017. See AA at Vol. 5
920-921: “The foregoing evidence shows that the Plaintiffs’ property was ﬂooded in 2005 and 2017, and suffered from pooling of water in 2014.” Id. at 932. In other
words, the 2014 and the 2017 events on the Fritzes
property occurred during the course of litigation in this
case.

App. 58
In Clark County v. Powers, this Court found that
Clark County had taken the Powers’ parcel in its entirety because the property no longer had any practical
use other than as a ﬂood channel, but when making
this ﬁnding the Clark County v. Powers Court was not
establishing this as a bedrock rule or minimum standard that must be met to show that any taking whatsoever occurred, rather the Court was describing that the
circumstances surrounding the Powers’ property were
so extreme that there could be no reasonable question
that a taking of the entire parcel occurred. Id. at 501,
611 P.2d 1072, 1075 (1980). The District Court applied
the ﬁndings of fact in the Clark County v. Powers as a
new and higher standard of law on the Fritzes, essentially requiring them to show total destruction of their
property to prove any taking. By requiring the Fritzes
to in essence show an entire loss of any economic use5
in a case involving intermittent physical invasion by
surface waters, i.e. by requiring a showing that any
usefulness for the entire property is destroyed or impaired, this Court is imposing what is in effect the
much higher standard for showing a regulatory taking,
not a taking where there is an associated physical invasion by the government. The standards as described
in the Order of Afﬁrmance are not consistent nor uniform with long-standing takings jurisprudence and result in moving goalposts for any litigant attempting to

5

The District Court’s Order concluded, “Further, Plaintiffs
leased the Property from 2002 to 2015 and currently reside on the
Property, thus Plaintiffs have not been deprived of the Property’s
economically beneﬁcial use due to the ﬂooding” AA Vol. 5 at 932.

App. 59
show a taking by the physical invasion resulting from
the intentional diversion of storm waters.
Prior to the Order of Afﬁrmance, this Court has
never deﬁned what “substantial injury” is for purposes
of determining where a taking occurs and does not occur in cases involving the physical invasion by drainage of surface waters by the government through
private land. This Court should not adopt a regulatory
takings standard requiring a showing of complete deprivation of any economic use as a requirement to show
a taking in cases where there is a physical invasion of
private property. “In general (at least with regard to
permanent invasions), no matter how minute the intrusion, and no matter how weighty the public purpose
behind it, we have required compensation.” Lucas v.
S.C. Coastal Council, 505 U.S. 1003, 1015, 112 S. Ct.
2886, 2893 (1992) citing Loretto v. Teleprompter Manhattan CATV Corp., 458 U.S. 419, 102 S.Ct. 3164, 73
L.Ed.2d 868 (1982).
As things stand, the Court’s Order of Afﬁrmance
permits ﬂowage easement across the Fritzes property
in favor of Washoe County that: (1) Washoe County has
not paid for; (2) is unlimited in scope; (3) devalues the
Fritzes land;6 (4) causes erosion and channeling on the
Fritzes land; and (5) precludes the Fritzes from any use
or development of the portion of the property that is
subject to the ﬂooding. This result is unjust and is
inconsistent with this Court and the US Supreme
6

The speciﬁc dollar amount of damage to the Fritzes property was never presented to the Court because this matter was
bifurcated into liability and damage phases.

App. 60
Court’s jurisprudence surrounding the taking of private property for public use described above.
CONCLUSION
WHEREFORE, the Fritzes pray that this Court
grant this Petition and reconsider its decision this
matter.
Respectfully submitted:
By /s/ Luke A. Busby
Dated: 9/10/2019
Luke Busby, Esq.
Nevada Bar No. 10319
316 California Ave.
Reno, NV 89509
775-453-0112
luke@lukeandrewbusbyltd.com
Attorney for John and Melissa Fritz

CERTIFICATE OF COMPLIANCE
1. I hereby certify that this petition for en banc
reconsideration complies with the formatting requirements of NRAP 32(a)(4), the typeface requirements of
NRAP 32(a)(5) and the type style requirements of
NRAP 32(a)(6) because this brief has been prepared in
a proportionally spaced typeface using Microsoft Word
in Calibri 15 point font.
2. I further certify that this petition for rehearing complies with the page or type-volume limitations

App. 61
of NRAP 40 or 40A because it does not exceed 4,667
words. This Petition contains 4,448 words and 479 lines.
Respectfully submitted:
By /s/ Luke A. Busby

Dated: 9/10/2019

Luke Busby, Esq.
Nevada Bar No. 10319
316 California Ave.
Reno, NV 89509
775-453-0112
luke@lukeandrewbusbyltd.com
Attorney for John and Melissa Fritz

CERTIFICATE OF SERVICE
I hereby certify that I have on this day served the
foregoing document upon the following parties by U.S.
Mail and/or Electronic Service and/or hand delivery to:
Washoe County DA’s Ofﬁce
Attn: Michael Large, Esq.
Stefan Hollandsworth, Esq.
Washoe County District Attorney Civil Div.
One South Sierra Street
Reno, NV 89501

App. 62
Steven M. Silva, Esq.
Nevada Bar No. 12492
Elizabeth J. Bassett, Esq.
Nevada Bar No. 9013
Blanchard, Krasner & French
5470 Kietzke Lane, Suite 200
Reno, NV 89511
(775)384-0022
ssilva@bkﬂaw.com
Respectfully submitted:
By /s/ Luke A. Busby
Dated: 9/10/2019
Luke Busby, Esq.
Nevada Bar No. 10319
316 California Ave 82
Reno, NV 89509
775-453-0112
luke@lukeandrewbusbyltd.com
Attorney for John and Melissa Fritz

App. 63
Luke Busby, Esq.
Nevada Bar No. 10319
316 California Ave
Reno, NV 89509
775-453-0112
luke@lukeandrewbusbyltd.com
Attorney for John and Melissa Fritz
IN THE SUPREME COURT
OF THE STATE OF NEVADA
JOHN AND MELISSA FRITZ,
Plaintiff-Appellants,
vs.

CASE NO. 75693

WASHOE COUNTY,
Defendant-Respondent,

/

APPELLANT’S OPENING BRIEF
(Filed Sep. 18, 2018)
COMES NOW the Appellant(s), JOHN AND
MELISSA FRITZ, a married couple (hereinafter “the
Fritzes”) by and through the undersigned counsel, and
hereby ﬁle the following Appellant’s Opening Brief
pursuant to Nevada Rule of Appellate Procedure
(“NRAP”) 28, seeking that the Court reverse the Findings of Fact, Conclusions of Law and Judgment After
Bench Trial [ii] (“District Court’s Order”) (AA at 914)
issued in Docket No. CV13-00756 by the Second Judicial District Court dated April 24, 2018, in favor of Respondent Washoe County, a political subdivision of the
State of Nevada.

App. 64
NRAP 26.1 DISCLOSURE
The undersigned counsel of record certiﬁes that
the following are persons and entities as described in
NRAP 26.1(a) and must be disclosed. These representations are made in order that the judges of this court
may evaluate possible disqualiﬁcation or recusal:
John and Melissa Fritz, a married couple – Appellants.
Washoe County, a political subdivision of the State
of Nevada – Respondent.
Attorney of record for John and Melissa Fritz
Respectfully submitted:
By /s/ Luke A. Busby
Dated: 9/18/2018
Luke Busby, Esq.
Nevada Bar No. 10319
316 California Ave. 82
Reno, NV 89509
775-453-0112
luke@lukeandrewbusbyltd.com
Attorney for John and Melissa Fritz
*

*

*

[v] TABLE OF AUTHORITIES
Constitutional Provisions
1.

Nev. Const. art. IV sec. 4 - Page ix

2.

Nev. Const. art. I, sec. 3, - Page 17

3.

Nev. Const. art. I, sec. 22 - Page 17, 19, 24

4.

5th Amendment to the US Constitution - Page 7, 51

App. 65
Statutes
1.

NRS 2.090 - Page ix

2.

NRS 51.035 - Page 24

3.

NRS 51.065 - Page 24

4.

NRS 47.050(1) - Page 25

Cases
1. Aftercare of Clark Cnty. v. Justice Ct. of Las Vegas
Twp., 120 Nev. 1, 4, 82 P.3d 931, 932 (2004) - Page 21
2. Ake v. General Motors Corp., 942 F.Supp. 869, 87778 (W.D.N.Y. 1996) - Page 25
3. Arkansas Game & Fish Comm’n v. United States,
568 U.S. 23, 133 S. Ct. 511, (2012) - Page 50
4. ASAP Storage, Inc. v. City of Sparks, 123 Nev. 639,
647, 173 P.3d 734, 739, 2007 WL 4532664 (2007) - Page
45, 46, 47, 50
5. Baronde de Bode’s Case, 8 Q.B. Rep. 208 (1845) Page 21
6. Burroughs Corp. v. Century Steel, Inc., 99 Nev.
464, 470, 664 P.2d 354, 358 (1983) - Page 28
*

*

*

[5] (6) Prior to the construction of Lancer Estates, a large percentage of water that ﬂowed
through Lancer Estates drained into Whites
Creek No. 4 below the Fritzes Property (AA Vol. 5
at 926:13); and
(7) Because Washoe County took numerous actions that modiﬁed the natural drainage of Lancer

App. 66
Estates, Monte Rosa, and Mt. Rose Highway, that
Washoe County’s actions constituted substantial
involvement in the development of private lands
(AA Vol. 5 at 926:5).
Despite ﬁnding these facts, the District Court concluded that the actions of Washoe County did not constitute public use (AA Vol. 5 at 930) and that the
actions of Washoe County were not the proximate
cause of the ﬂooding on the Fritzes Property (AA Vol. 5
at 930:19). The District Court also found that because
the Fritzes’ property has been used for practical purposes other than a ﬂood channel, that no taking had
occurred (AA Vol. 5 at 933:1).
V.

STATEMENT OF THE FACTS

7. The Fritzes claim their property at 14400
Bihler Rd., Washoe County APN No. 142-241-63 (the
“Property”) was taken by Washoe County for public use
without just compensation in violation of the Fifth
Amendment to the United States Constitution and the
Constitution of the
*

*

*

[45] provided photographic evidence that ﬂooding occurred on the Property in 2014 (AA Vol. 6 at 13401344), which was also admitted by the District Court
in Trial Exhibit 28.

App. 67
e. The District Court cited and applied the incorrect standard of law for determining
whether a taking has occurred and erred in
finding that a taking did not occur
i.

Standard of Review

67. Whether the District Court applied the incorrect standard as to whether a taking occurred or erred
in ﬁnding a taking did not occur is a question of law.
Errors of law are subject to de novo review. Jackson v.
Groenendyke, 369 P.3d 362, 365 (Nev. 2016).
68. The Court’s Order cites ASAP Storage, Inc. v.
City of Sparks, 123 Nev. 639, 647, 173 P.3d 734, 739,
2007 WL 4532664 (2007) (citing Lingle v. Chevron
U.S.A. Inc., 544 U.S. 528, 537, 125 S. Ct. 2074 (2005)) in
concluding that a taking can arise when the government regulates or physically appropriates an individual’s private property and that physical appropriation
exists when the government seizes or occupies private
property or ousts owners from their private property
(AA Vol. 5 at 931:9) In 2015, eight years [46] subsequent to the issuance ASAP Storage, Inc. v. City of
Sparks, this Court issued its opinion in Buzz Stew, LLC
v. City of N. Las Vegas, 131 Nev. Adv. Op. 1, 341 P.3d
646, 650, 2015 WL 392722 (2015) (Buzz Stew II), and
clariﬁed that a taking occurs in surface water ﬂooding
cases where there is (1) physical invasion of ﬂood waters, and (2) resulting substantial injury. The District
Court’s Order does not cite to Buzz Stew II. The District Court’s Order, by its own analysis shows that
the Fritzes established at trial that their property
was physically invaded by ﬂood waters, and that

App. 68
substantial injury occurred: On page 7 line 16 of the
District Court’s Order at AA Vol. 5 at 920, the District
Court ﬁnds that during the 2005 winter storm, the
Fritzes’ property was ﬂooded, the shop on the property
was ﬂooded with water and alluvial soil. Further, the
evidence showed that the entire purpose of the design,
construction, and maintenance of the drainage system
in Lancer Estates is to convey increased ﬂows from
Lancer Estates, Monte Rosa, and Mt. Rose Highway
into Whites Creek #4 above the Fritzes’ parcel, where
in its natural condition the water from these projects
ﬂowed around the Fritzes’ Property.
[47] 69. In analyzing this case under the ASAP
Storage standard for regulatory takings, the District
Court makes several ﬁndings that are not applicable
under the Buzz Stew standard, including that: “Plaintiffs have not been deprived of the Property’s economically beneﬁcial use due to the ﬂooding” (AA Vol 5 at
932:7). The Fritzes have clearly alleged a taking by
physical invasion by ﬂoodwaters and resulting substantial injury. A physical taking occurs where the
state grants itself possession or reserves part of the
property for the public. McCarran Intl Airport v. Sisolak, 122 Nev. 645, 662, 137 P.3d 1110, 1122, 2006 WL
1914784 (2006) The “all economically beneﬁcial use”
test applied in this case by the District Court only applies in cases involving a regulatory taking, which the
Fritzes do not and have not alleged. “Categorical rules
apply when a government regulation either (1) requires an owner to suffer a permanent physical invasion of her property or (2) completely deprives an

App. 69
owner of all economical beneﬁcial use of her property.”
Id. citing Kelly v. TRPA, 109 Nev. 638, 648, 855 P.2d
1027, 1033 (1993). The reason for this categorical distinction is obvious, i.e. a state cannot build an interstate highway (or use as a ﬂoodway) half of a property
[48] owner’s land and then claim there was no taking
because the property still has some economically beneﬁcial use.
70. The District Court also found: “This Court
does not ﬁnd that an appropriation, occupation or seizure of the Property has taken place sufﬁcient to prove
that a taking has occurred” (AA Vol. 5 at 933:15) based
on its conclusion that ﬂooding not shown to be inevitably recurring occupies the category of mere consequential injury or tort, citing Pinkham v. Lewiston Orchards
Irr. Dist., 862 F.2d 184, 185, 1988 WL 125592 (9th Cir.
1988) (Order at 19:21).
71. In Pinkham v. Lewiston Orchards Irr. Dist.,
plaintiffs brought an action for damages caused by the
ﬂooding of water onto plaintiffs’ allotted land in April
1959, and again around April 24, 1984 that occurred
because a canal carrying water across plaintiffs’ allotted land broke. Id. at 184. The Court found that
ﬂooding was not “inevitable” because the plaintiff ’s
complaint did not allege that a ﬂood of the type that
injured their property in April 1959 and April 1984
would recur frequently and inevitably. Id. at 189. The
Fritzes’ case is very clearly a different set of circumstances from those in Pinkham v. Lewiston Orchards
Irr. Dist. because the ﬂooding is being [49] caused by
the intentional diversion of stormwater from Mt. Rose

App. 70
Highway, Lancer Estates, and Monte Rosa through the
permanent infrastructure of Lancer Estates and
Monte Rosa, not the temporary or unintended breaking of a canal. The Fritzes very clearly alleged that
their property is subject to intermittent but inevitable
ﬂooding from water from Lancer Estates and Monte
Rosa, causing substantial injury. (See Third Amended
Complaint at AA Vol. 1 at 23:13). This case does not
involve a tort because it is not a situation where the
injury is the result of a non-recurring activity such as
a spill or a non-recurring trespass. The Fritzes proved
the inevitability of the ﬂooding at trial by showing that
the 10-year stormwater output from Lancer Estates
alone was enough to overwhelm the culvert on Bihler
Rd. and cause ﬂooding on the Fritzes’ Property as described at length above. “[T]he government may be liable if it concentrates and gathers water into artiﬁcial
drains or channels and discharges it upon adjoining
lands in quantities greater than or in a manner different from the natural ﬂow.” Dickgieser v. State, 153
Wash. 2d 530, 543, 105 P.3d 26, 33, 2005 WL 171346
(2005) citing 18 Eugene McQuillin, The Law of Municipal Corporations § 53.144, at 538 (3d rev. ed.1963).
[50] 72. A talking occurs where government interference with property rights is “permanent, continuous, or inevitably recurring.” ASAP Storage Inc. v.
Sparks, 123 Nev. 639, 649, 173 P.3d 734, 741 (2007).
Where the government intentionally induces ﬂooding
or ﬂooding is the foreseeable result of authorized government action, a taking occurs. See Arkansas Game &
Fish Comm’n v. United States, 568 U.S. 23, 133 S. Ct.

App. 71
511, (2012). The District Court’s conclusion that because damage to the property was caused by extreme
weather events in 2005 and 2017 this proves that a
taking did not occur is not reasonable, nor is it supported by the facts, nor is it consistent with wellestablished Constitutional law cited above.
73. As described above, the 2005 and 2017 events
were examples of ﬂooding occurring on the property resulting from the intended design of the stormwater
system in Lancer Estates and Monte Rosa and the diversion of water through these developments from
Mt. Rose Highway. As described above, the evidence at
trial proved that because the 10-year ﬂood capacity of
Lancer Estates alone is sufﬁcient to cause ﬂooding
on the Fritz’s Property, they can expect ﬂooding with
at least such a frequency and that the Fritzes to be
expected to bear the costs associated the diversion
of stormwater [51] with 10-year or greater weather
events to protect Lancer Estates, Monte Rosa, and Mt.
Rose Highway. Even a minimal “permanent physical
occupation of real property” requires compensation under the Fifth Amendment. Tapio Inv. Co. I v. State by
& through the Dept of Transp., 196 Wash. App. 528,
539, 384 P.3d 600, 606, 2016 WL 6301605 (2016) citing
Palazzolo v. Rhode Island, 533 U.S. 606, 617, 121 S.Ct.
2448, 150 L.Ed.2d 592 (2001) (quoting Loretto v. Teleprompter Manhattan CATV Corp., 458 U.S. 419, 427,
102 S.Ct. 3164, 73 L.Ed.2d 868 (1982)).

App. 72
VIII.

CONCLUSION

WHEREFORE, the Fritzes pray that this Court
reverse the District Court’s Order in this matter and
remand this case for trial by jury. If the Court ﬁnds
that no right to a jury exists in the liability phase on
an inverse condemnation proceeding, the Fritzes pray
that the Court reverse the District Court’s Order and
conclude: (1) A taking occurred; (2) The taking was
proximately caused by Washoe County; and (3) The
taking was for [public] use.
[52] Respectfully submitted:
By /s/ Luke A. Busby
Dated: 9/18/2018
Luke Busby, Esq.
Nevada Bar No. 10319
316 California Ave. 82
Reno, NV 89509
775-453-0112
luke@lukeandrewbusbyltd.com
Attorney for John and Melissa Fritz

App. 73
CODE 1090
Luke Busby
Nevada State Bar No. 10319
543 Plumas St.
Reno, NV 89501
775-453-0112
luke@lukeandrewbusbyltd.com
Attorney for John and Melissa Fritz
IN THE SECOND JUDICIAL DISTRICT COURT
OF THE STATE OF NEVADA IN AND FOR
THE COUNTY OF WASHOE
JOHN AND MELISSA FRITZ,
Plaintiffs,

CASE NO.
CV 13-00756

vs.

DEPT NO.

1

WASHOE COUNTY
Defendant(s),

/

THIRD AMENDED VERIFIED COMPLAINT
(Filed May 12, 2014)
COMES NOW, JOHN FRITZ and MELISSA
FRITZ, a married couple (“Plaintiffs”), residents of
Washoe County, Nevada, by and through the undersigned counsel and hereby ﬁles the following Complaint, requesting an order from the Court requiring
the named Defendants herein below to compensate
Plaintiffs for the taking and condemnation of their
property at 14400 Bihler Rd., Washoe County APN No.
142-241-63 (hereinafter “the Property” or “Plaintiffs

App. 74
Property”). The Property that has been taken is more
particularly described in Exhibit 1, attached hereto
and incorporated herein by reference.
Party Identification
1. Plaintiffs at all times relevant hereto were
residents of Washoe County, State of Nevada.
2. Washoe County is a political subdivision of the
State of Nevada.
3. The names of all owners, occupants of and
claimants to the Property that has been condemned by
Washoe County herein insofar as known to Plaintiffs
are as follows: a) Bank of America, NA as holder of a
Revolving Credit Deed of Trust on the Property; b)
Wells Fargo Bank, NA as holder of a Deed of Trust on
the Property); and (c) Mr. James Bedlam, who leases
the Property from Plaintiffs.
Allegations of Fact
4. Plaintiffs are informed and believe, and thereupon allege, the following facts:
5. Washoe County is authorized to exercise the
power of eminent domain and to condemn property.
6. Washoe County is a member in and participates
in the National Flood Insurance Program, (“NFIP”).
7. By virtue of its membership in the NFIP,
Washoe County is required to manage ﬂoodplains

App. 75
within Washoe County in ways that meet or exceed
standards set by the Federal Emergency Management
Agency (“FEMA”).
8. Washoe County manages ﬂoodplains in ways
that meet or exceed the standards set by FEMA by
placing restrictions on the development of and supervising the development of private land and by adopting
the activities of developers, pursuant to various provisions of the Washoe County Code and Washoe County’s
Master Plan.
9. Washoe County manages the ﬂow of water in
the Whites Creek Hydrological Basin above the Plaintiff ’s Property by controlling at least one diversion
structure on Whites Creek located near Whites Creek
County Park for water rights and ﬂood control purposes.
10. Since approximately 1984, Washoe County
substantially participated in the planning and development of and has approved the building plans for
housing developments located within Washoe County
commonly known as Lancer Estates and Monte Rosa.
11. Washoe County has approved of and adopted
the activities of the developers of Lancer Estates and
Monte Rosa pursuant to Article 416 of the Washoe
County Code (which regulates ﬂood hazards), Article
418 of the Washoe County Code (which regulates
Signiﬁcant Hydrologic Resources), Article 420 (which
regulates Storm Drainage Standards), and other provisions of the Washoe County Code and Washoe
County’s Master Plan.

App. 76
12. For both Lancer Estates and Monte Rosa,
Washoe County approved of and adopted the activities
of the developers of Lancer Estates and Monte Rosa by
requiring the submittal of planning applications and
tentative maps which directed the developers of
Lancer Estates and Monte Rosa to build Lancer Estates and Monte Rosa in accordance with Washoe
County’s applicable rules and regulations regarding
the drainage of water from Lancer Estates and Monte
Rosa.
13. For both Lancer Estates and Monte Rosa,
Washoe County approved of and adopted the activities
of the developers of Lancer Estates and Monte Rosa by
issuing Action Orders based on the submittal of planning applications and tentative maps, which directed
the developers of Lancer Estates and Monte Rosa to
build Lancer Estates and Monte Rosa in accordance
with Washoe County’s applicable rules and regulations
regarding the drainage of water from Lancer Estates
and Monte Rosa into the natural drainage commonly
known as Whites Creek No. 4.
14. On or about November 29, 1984, Washoe
County accepted dedication of the curbs, gutters, and
storm drains in Lancer Estates Unit 2 by approving
the ﬁnal map for Lancer Estates Unit 2 or by later accepting dedication of said facilities and such facilities
drain water from Lancer Estates to the Plaintiff ’s
Property.
15. On or about April 1, 1991, Washoe County accepted dedication of the curbs, gutters, and storm

App. 77
drains in Lancer Estates Unit 3 by approving the ﬁnal
map for Lancer Estates Unit 3 or by later accepting
dedication of said facilities which drain water from
Lancer Estates to the Plaintiff ’s Property.
16. On or about June 26, 1992, Washoe County
accepted dedication of the curbs, gutters, and storm
drains in Lancer Estates Unit 4 by approving the ﬁnal
map for Lancer Estates Unit 4 or by later accepting
dedication of said facilities which drain water from
Lancer Estates to the Plaintiff ’s Property.
17. On or about May 23, 1993, Washoe County
accepted dedication of the curbs, gutters, and storm
drains in Lancer Estates Unit 5 by approving the ﬁnal
map for Lancer Estates Unit 5 or by later accepting
dedication of said facilities which drain water from
Lancer Estates to the Plaintiff ’s Property.
18. In April of 1994, Washoe County accepted a
Preliminary Whites Creek Basin Management Study
(“Cella Bar Study”) prepared by Cella Bar Associates,
which had been commissioned by Washoe County to
study the hydrology of the Whites Creek area.
19. The Cella Bar Study indicates on page 15
that “Existing Problem Areas” include “Some of the
residential lots backing up adjacent to the south of
[Whites Creek] Channel No. 4 have potential for ﬂooding during a 100-year event.” (See Exhibit 2)
20. The Plaintiffs Property is located in the area
identiﬁed as a problem area in the Cella Bar Study.

App. 78
21. On or about May 17, 1994, Washoe County
accepted dedication of the curbs, gutters, and storm
drains in Lancer Estates Unit 6 by approving the ﬁnal
map for Lancer Estates Unit 6 or by later accepting
dedication of said facilities which drain water from
Lancer Estates to the Plaintiff ’s Property.
22. On or about September 20, 1994, Washoe
County accepted dedication of the curbs, gutters, and
storm drains in Lancer Estates Unit 7 by approving
the ﬁnal map for Lancer Estates Unit 7 or by later accepting dedication of said facilities which drain water
from Lancer Estates to the Plaintiff ’s Property.
23. On or about June 20, 1995, Washoe County
accepted dedication of the curbs, gutters, and storm
drains in Lancer Estates Unit 8 by approving the ﬁnal
map for Lancer Estates Unit 8 or by later accepting
dedication of said facilities which drain water from
Lancer Estates to the Plaintiff ’s Property.
24. On or about July 30, 1999, Washoe County
accepted dedication of the curbs, gutters, and storm
drains in Lancer Estates Unit 10 by approving the ﬁnal map for Lancer Estates Unit 10 or by later accepting dedication of said facilities which drain water from
Lancer Estates to the Plaintiff ’s Property.
25. On or about December 13, 2005, Washoe
County accepted dedication of certain storm drains
and/or detention ponds in Monte Rosa Unit 1 by approving the ﬁnal map for Monte Rosa Unit 1 or by later
accepting dedication of said facilities which drain water from Monte Rosa to the Plaintiff ’s Property.

App. 79
26. On or about November 21, 2007, Washoe
County accepted dedication of certain storm drains
and/or detention ponds in Monte Rosa Unit 2 by approving the ﬁnal map for Monte Rosa Unit 2 or by later
accepting dedication of said facilities which drain water from Monte Rosa to the Plaintiff ’s Property.
27. To the best of the Plaintiff ’s knowledge and
belief, development at Monte Rosa is ongoing at the
time of the ﬁling of this amended complaint.
28. The development Monte Rosa by Washoe
County and various third parties has caused alteration, diversion, channeling, and acceleration of rain,
nuisance, and ﬂood waters onto the Plaintiff ’s Property by substantially increasing the amount of water
and accelerating the ﬂow of that water across the natural drainage commonly known as Whites Creek No. 4,
which crosses the Plaintiff ’s Property.
29. The development Lancer Estates by Washoe
County and various third parties has caused alteration, diversion, channeling, and acceleration of rain,
nuisance, and ﬂood waters onto the Plaintiff ’s Property by substantially increasing the amount of water
and accelerating the ﬂow of that water across the natural drainage commonly known as Whites Creek No. 4,
which crosses the Plaintiff ’s Property.
30. Water from Lancer Estates and Monte Rosa
drains onto Plaintiff ’s Property and is causing substantial and ongoing damage to the Property including
but not limited to the cutting of a large ditch on the
corner of the Fritz’s property, ﬂooding of buildings on

App. 80
the Fritz’s property, and sheet ﬂooding over a large
area of the Property during storm events.
31. The development of Lancer Estates and
Monte Rosa, and other activities of Washoe County,
have altered the FEMA ﬂoodplain on Whites Creek No.
4 such that it covers a greater area of the Plaintiff ’s
Property than previous to the development of Lancer
Estates and Monte Rosa.
32. Movement of the FEMA ﬂoodplain as described above makes a large area of the Plaintiff ’s
Property unsuitable for further development or improvement without incurring substantial cost and efforts to prevent ﬂooding.
33. Various improvements required or made by
Washoe County in the development of Lancer Estates
and Monte Rosa, and other activities of Washoe County
involving drainage of water into Whites Creek No. 4,
are public improvements, i.e. made for the beneﬁt of
the public at the expense of the Plaintiff, and are the
cause of the Plaintiff ’s damages.
34. Washoe County has allowed and has substantially participated in the development of Lancer
Estates and Monte Rosa, which adds to and accelerates
ﬂows of water in Whites Creek No. 4 despite knowing
since at least 1994 upon receiving the Cella Bar Study
that the area where the Plaintiff ’s Property is located
in an existing problem area subject to ﬂooding.
35. The use of the Plaintiff ’s Property by Washoe
County for a ﬂoodway for the runoff of water from

App. 81
upstream properties as described above constitutes a
public use.
36. The Plaintiffs have suffered damages as a result of the taking of their Property by Washoe County.
Claim for Relief
Inverse Condemnation
37. Plaintiffs re-allege the foregoing paragraphs
as though the same were set forth hereat verbatim, incorporating every one herein by this reference into the
claims listed below.
38. Per NRS 278.390, title to dedicated facilities
in Lancer Estates and Monte Rosa passed to Washoe
County either on recordation of the ﬁnal maps or subsequent acceptance by Washoe County.
39. By virtue of Washoe County’s substantial involvement in the development of Lancer Estates and
Monte Rosa and Washoe County’s adoption of the activities of the developers of Lancer Estates and Monte
Rosa as part of Washoe County’s Master Plan and requirements in the Washoe County Code for the drainage and ﬂood control of the area, Washoe County has
exercised the power of eminent domain over the Plaintiff ’s Property in violation of II Article 1, Sections 8 and
22 of the Constitution of the State of Nevada, the takings clause of the Fifth Amendment of the United
States Constitution, and without complying with the
procedures set forth in Chapter 37 of the Nevada Revised Statutes (which a government entity is required

App. 82
by law to follow before taking private property for public use).
40. Washoe County has taken the Plaintiff ’s
property for public use.
41. Storm waters from the drainage system on
Lancer Estates and Monte Rosa in Whites Creek No. 4
has actually invaded the Plaintiff ’s Property by superinduced additions of water so as to effectually destroy
or impair its usefulness. Pumpelly v. Green Bay Company, 80 U.S. (13 Wall.) 166, 181 (1871).
42. The Plaintiff ’s Property is subjected to intermittent-but-inevitable ﬂooding from waters from
Lancer Estates and Monte Rosa, which causes substantial injury and damages to the Property. United
States v. Cress, 243 U.S. 316, 328 (1917).
43. The continuing ﬂooding on the Plaintiff ’s
Property caused by the development of ‘Lancer Estates
and Monte Rosa, and other activities of Washoe County
constitutes a permanent physical invasion of the Property. McCarron Intl Airport v. Sisolak, 122 Nev. 645,
662 (Nev. 2006).
44. The Plaintiff has suffered damages as a result of the taking of their Property by Washoe County.
45. Plaintiff has been required to seek professional engineering and legal services to prosecute this
action, and, accordingly, each is entitled to recover
their reasonable attorney fees together with other
costs incurred therefor.

App. 83
WHEREFORE, Plaintiffs pray for judgment
against the Defendants as follows:
a. For the taking of the Plaintiff ’s Property as
described herein, damages in an amount in excess of
$10,000;
b. For reasonable attorneys’ fees and costs per
NRS 37.185;
c.

For compensatory damages as permitted by

d.

For consequential damages as permitted by

e.

For statutory damages as permitted by law;

f.

For interest as permitted by law;

g.

For such other relief as is just and proper

law;
law;

NRS 23913.030(4) AFFIRMATION
Pursuant to NRS 239B.030 as well as Rule 10 of
the Washoe District Court Rules, the undersigned
hereby afﬁrms that this document does not contain the
social security number of any person.

App. 84
Respectfully submitted this Monday, May 12, 2014.
By /s/ Luke A. Busby
Luke Busby
Nevada Bar No. 10319
543 Plumas St.
Reno, NV 89501
775-453-0112
luke@lukeandrewbusbyltd.com
Attorney for John and Melissa Fritz

VERIFICATION
STATE OF NEVADA

)
)ss:
COUNTY OF WASHOE )
John Fritz, being ﬁrst duly sworn, deposes and
says:
That he is the Plaintiff in the forgoing [sic] action.
That he has read the foregoing THIRD AMENDED
VERIFIED COMPLAINT and knows the contents
thereof. That the contents of the THIRD AMENDED
VERIFIED COMPLAINT are true and correct to the
best of his knowledge, information and belief, and as to
those matters he believes them to be true.
/s/ John Fritz
John Fritz

App. 85
Subscribed and sworn to before me
This 12th day of May, 2014[, by xx John Matthew Frtiz
xx]
/s/ Kimberly K. Foster
NOTARY PUBLIC in and for
said County and State
KIMBERLY K. FOSTER
Notary
Public - State of Nevada
[SEAL]
Appointment Recorded in Washoe County
No. 98-0552-2 - Expires July 13, 2015

CERTIFICATE OF SERVICE
I hereby certify that I have on this day served the foregoing document upon the following parties by electronic service to:
Washoe County DA’s Ofﬁce
Attn: Terrence Shea, Esq.
Washoe County District Attorney Civil Div.
P.O. Box 11130
Reno, NV 89520
Respectfully submitted this Monday, May 12, 2014.
/s/ Luke A. Busy
Luke Busby

